<html>
<title> - PROTECTING WATER QUALITY AT AMERICA'S BEACHES</title>
<body><pre>[Senate Hearing 110-1098]
[From the U.S. Government Publishing Office]




                                                       S. Hrg. 110-1098
 
             PROTECTING WATER QUALITY AT AMERICA'S BEACHES

=======================================================================


                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON TRANSPORTATION SAFETY,

               INFRUSTRUCTURE SECURITY, AND WATER QUALITY

                                 of the

                              COMMITTEE ON

                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 27, 2007

                               __________

  Printed for the use of the Committee on Environment and Public Works


         Available via the World Wide Web: http://www.fdsys.gov

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
61-972                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         LARRY E. CRAIG, Idaho
BERNARD SANDERS, Vermont             LAMAR ALEXANDER, Tennessee
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director
                              ----------                              

  Subcommittee on Transportation Safety, Infrastructure Security, and 
                             Water Quality

               FRANK R. LAUTENBERG, New Jersey, Chairman
BENJAMIN L. CARDIN, Maryland         DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     GEORGE V. VOINOVICH, Ohio
BARBARA BOXER, California, (ex       JAMES M. INHOFE, Oklahoma, (ex 
    officio)                             officio)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JUNE 27, 2007
                           OPENING STATEMENTS

Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     1
Boxer, Hon. Barbara, U.S. Senator from the State of California...     2
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...    55
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland    56

                               WITNESSES

Pallone, Hon. Frank, U.S. Representative from the State of New 
  Jersey.........................................................     4
    Prepared statement...........................................     6
Bilbray, Hon. Brian P., U.S. Representative from the State of 
  California.....................................................     7
    Prepared statement...........................................     9
Grumbles, Benjamin H., Assistant Administrator for Water, U.S. 
  Environmental Protection Agency................................    11
    Prepared statement...........................................    12
    Responses to additional questions from:
        Senator Inhofe...........................................    17
        Senator Lautenberg.......................................    20
Mittal, Anu K., Director, Natural Resources and Environment, U.S. 
  Government Accountability Office...............................    21
    Prepared statement...........................................    22
    Response to an additional question from Senator Inhofe.......    31
Zipf, Cindy, Executive Director, Clean Ocean Action..............    35
    Prepared statement...........................................    37
Dufrechou, Carlton, Executive Director, Lake Pontchartrain Basin 
  Foundation.....................................................    40
    Prepared statement...........................................    42
    Response to an additional question from Senator Inhofe.......    47
Dias, Mara, Water Quality Coordinator, Surfrider Foundation......    47
    Prepared statement...........................................    49

                          ADDITIONAL MATERIAL

Letter, Kirk, Ken, Executive Director, National Association of 
  Clean Water Agencies...........................................    57


             PROTECTING WATER QUALITY AT AMERICA'S BEACHES

                              ----------                              


                        WEDNESDAY, JUNE 27, 2007

                               U.S. Senate,
         Committee on Environment and Public Works,
     Subcommittee on Transportation Safety, Infrastructure 
                               Security, and Water Quality,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Frank R. 
Lautenberg (chairman of the subcommittee) presiding.
    Present: Senators Lautenberg and Boxer.

 STATEMENT OF HON. FRANK R. LAUTENBERG, U.S. SENATOR FROM THE 
                      STATE OF NEW JERSEY

    Senator Lautenberg. Good morning. The subcommittee will 
come to order.
    We welcome the members of the House of Representatives. We 
welcome everybody to today's hearing, because we want to work 
to improve the health of our beaches, protect the safety of the 
people who enjoy them. All you have to do is be outside for a 
few minutes and know that we ought to be at the beach.
    [Laughter.]
    Senator Lautenberg. As long as we know it is clean and 
hospitable.
    As we work here in the Capitol, people are relaxing on our 
Nation's shores. Even more will do so next week on the 4th of 
July. It is reported that over 180 million people visit seaside 
resorts in the year, more than half our population. New Jersey, 
millions of people visit our shore each year, and their visits 
generate more than $36 billion for our State's economy and 
result in the employment of over 470,000 people.
    So that is why it is so important that we protect our 
shores, make sure they are safe for swimming, surfing, other 
activities. Unfortunately, sometimes our coastal waters are 
damaging, contaminated. Human exposure to such pollution can 
cause all sorts of problems, illnesses, from rashes to 
respiratory problems.
    That is why Congress passed the Beaches Environmental 
Assessment and Coastal Health Act, known as the BEACH Act, in 
2000. Two friends from the Congress, Representatives Pallone 
and Bilbray and I worked very hard to pass that law. It 
required States to adopt standards for their coastal water and 
provided grants to States to develop programs for testing the 
water and notifying the public of any problems. Our legislation 
required the EPA to study the health impacts of different 
pathogens in ways to rapidly test the water for their presence. 
Thanks to the BEACH Act, every coastal State now has standards 
as strong or stronger than EPA's, and every coastal State has a 
monitoring and notification program.
    In May, Congressman Pallone and I introduced a new bill to 
strengthen the law that we wrote in the year 2000. Our new bill 
doubles the funding for State grants. It increases funds for 
States to track pollutants that threaten public health and 
cause beach closures. It strengthens requirements for informing 
the public about health risks. It requires the EPA to develop 
rapid testing of beach water, to analyze our water quality in 
hours, not in days. The original BEACH Act was done in 
bipartisan fashion, and we want to continue that spirit on this 
committee as we proceed with this legislation, with the Beach 
Protection Act of 2000.
    I am delighted to be here by the Chairman, person, woman--
--
    Senator Boxer. Chairman, person, woman. That is three 
people.
    [Laughter.]
    Senator Lautenberg. You do enough for three. Welcome to the 
subcommittee hearing, and I will ask if Senator Boxer wants to 
make an opening statement.

STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE STATE OF 
                           CALIFORNIA

    Senator Boxer. I do, Senator, Mr. Chairman. As you know, we 
have this briefing, and just really unfortunate timing. So I am 
going to make this statement and go to the briefing. But I had 
to come here first because I am so proud of your leadership, 
Senator, on protecting our oceans and our coasts. As you will 
hear from Congressman Bilbray, and I know of course, Frank 
Pallone, who I served with for a long time, our coast is 
everything to our respective States, really, when you think 
about it. So we need this kind of leadership.
    When I took over as Chair of the committee, I was so 
pleased that you would become the chair of this subcommittee. 
With all of the responsibilities that you have, this is an 
important one. Your leadership on the Ocean Dumping Ban Act to 
stop the harmful dumping of sewage sludge in the Atlantic to 
being the Senate leader on the BEACH Act that is the subject of 
today's hearing, the oceans could have no better friend than 
Senator Lautenberg.
    He has led the charge in defense of the Jersey Shore, which 
is as important to New Jersey's economy and identity as 
California's spectacular coast is to the home State of 
Congressman Bilbray and myself.
    The oceans are a precious resource and they are just that, 
they are a resource. That resource needs to be protected. In 
addition to being the most diverse ecosystem on earth, they 
provide us with a vital source of food and recreational 
opportunities. To coastal States like California, clean, 
healthy oceans and beaches are essential to our economy.
    Senator Lautenberg, according to 2003 statistics, ocean-
related tourism generates $11.1 billion annually and accounts 
for 271,000 jobs in the State of California. It is an enormous 
resource for us.
    Nationally, the figure is $58 billion annually. That 
doesn't even include jobs and revenue from other ocean sectors, 
such as fishing and shipping.
    So to put it bluntly, in California and coastal States, 
beautiful, safe beaches are big business. But I think we all 
agree that if the beaches and ocean waters are not clean and 
healthy, people will not come and enjoy them. Indeed, according 
to EPA, public health risks from swimming in polluted coastal 
waters is serious. EPA's research has found that contact with 
contaminated water can lead to gastrointestinal disorders, ear 
or skin infections and inhalation of contaminated water can 
cause respiratory diseases.
    The pathogens responsible for these diseases can be 
bacteria, viruses, protozoans, fungi or parasites. Our children 
and seniors, of course, are the most sensitive. They always 
are. That is why this hearing is so important.
    To address this issue in 2000, Congress enacted the Beaches 
Environmental Assessment and Coastal Health Act, nicknamed the 
BEACH Act, which requires States to update their water quality 
standards to include protection of human health from pathogens 
in all waters. The Act also includes a grant program to help 
States monitor water quality standard violations and notify the 
public of these problems. The BEACH Act has had successes. 
States have adopted water quality standards, public 
notification of problems is now the norm, not the exception.
    However, we need to improve our testing abilities and 
assist communities in identifying and addressing sources of 
contamination. You are very distinguished witnesses today, 
representing a broad swath of our Nation's coasts and coastal 
interests. I particularly do want to welcome our House 
colleagues, who worked together to see the BEACH Act through 
the House in 2000.
    So, Senator Lautenberg, as I go off to this briefing, I 
just feel so secure knowing that you have the chair of the 
subcommittee, that you are on my committee and that your 
leadership and your wisdom is just going to shine through in so 
many areas. This is just one of them today.
    I also want to say that as soon as we are ready to move 
this legislation through the committee, you can count on me to 
put it on the schedule.
    Senator Lautenberg. Sure thing.
    Are you finished saying those nice things?
    Senator Boxer. Yes, do you want some more? Did I say 
enough?
    [Laughter.]
    Senator Lautenberg. You can have more time.
    Senator Boxer. The Senator is giving me an additional 5 
minutes.
    [Laughter.]
    Senator Lautenberg. Thanks. I love serving with Senator 
Boxer as the Chairman, I can tell you. The environment is 
different, it is healthier, it is nice.
    Anyway, Congressman Pallone, we have worked together on 
lots of things. Obviously, being from the wonderful State of 
New Jersey, our paths cross often, but more often on the coast 
than any place else in the State. I enjoy our opportunities to 
discuss our views and to learn from your intimate knowledge of 
what goes on in the coastline and the waters. We have passed 
other legislation, also, along the way, to make sure that the 
waters are kept as clean as they can be. We welcome you.
    Congressman Bilbray, your coast is also a critical item in 
the State's economy and certainly in your district. We thank 
you for your participation today.
    First, we will hear from Congressman Pallone.

 STATEMENT OF HON. FRANK PALLONE, U.S. REPRESENTATIVE FROM THE 
                      STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Senator Lautenberg.
    First of all, let me say, I know we keep piling it on here. 
But I have to say that without your help over the years, and 
what you have done in the Senate, many of the battles that we 
fought to preserve the shore, to clean up the beaches, to 
improve our ocean water quality, would never have been 
successful. Whether it is money for beach replenishment or 
trying to put an end to ocean dumping, or the BEACH Act that we 
are talking about today, you have always been the key person to 
be out there and make sure that our beaches and our shore are 
protected. I know you just always go out of your way when it 
comes to the New Jersey coast, so thank you again for that.
    It is really great to see that you chair this subcommittee 
and to see Senator Boxer chair the full committee, because it 
is nice to have Democrats in the majority, but it is 
particularly nice to have the two of you out there on this 
important issue. It really makes a difference.
    I am not going to go into the various reasons why a clean 
ocean and clean beaches are important to our economy. I think 
you know that. But of course, I do want to say that next 
weekend, which of course is the 4th of July weekend, we are 
going to have thousands of people down on the New Jersey 
beaches and we want to make sure that they are clean and safe. 
As we speak, the House is actually passing a resolution 
designating next week as Clean Beaches Week nationally, which 
is part of a several organization national campaign. I would 
hate to think that we have Clean Beaches Week but the beaches 
are not clean. So obviously, that is why this is important to 
us.
    You talked about the original BEACH Act, which you authored 
and both of us authored on the House side. There is no question 
that that has made major strides over the years in keeping the 
beaches clean and keeping the waters clean. But it is also true 
that it can be improved, which is why we have jointly 
introduced this new legislation that is before us today. I will 
just say, the Act, as you know, has three provisions, basically 
requiring States to adopt current EPA water quality criteria to 
protect beach-goers from getting sick, two requiring the EPA to 
update these water quality criteria with new science and 
technologies to provide better, faster water testing; and 
third, providing grants to States to implement coastal water 
monitoring programs.
    New Jersey has used some of this grant money in the past to 
become the first State in the Nation to launch a real-time Web 
site that notifies beach-goers of the state of our beaches. 
That Web site has been very successful as well.
    The bill that is before us today significantly increases 
the grant levels. It goes from $30 million under the old 
authorization to a new level of $60 million annually, so it is 
twice as much. But it also says that the scope of those grants 
are expanded from just water quality monitoring and 
notification, which is the way it has been in the past, to now 
include pollution source tracking and prevention efforts. I 
think that is significant, because we want the States to be 
able to prevent the problems that we see.
    More importantly, the legislation goes further on 
environmental standards than any before by requiring tougher 
standards for beach water quality testing and communication. It 
says that beach water quality violations are disclosed not only 
to the public, but all relevant State agencies with beach water 
pollution authority.
    Now, I want to stress a little bit the rapid testing, Mr. 
Chairman, because I think that is a very important part of what 
we are trying to do here. The bill mandates the use of rapid 
testing methods by requiring the EPA to approve the use of 
rapid testing methods that detect bathing water contamination 
in 2 hours or less. Grantees must use those methods within 1 
year of approval. This is something that you and I have been 
advocating for the last several years, as well as Mr. Bilbray. 
The current tests, like those in New Jersey, only test for 
bacteria levels and take 24 to 48 hours to produce reliable 
results. During that time, beach-goers can be unknowingly 
exposed to harmful pathogens. More immediate results will 
prevent beaches from remaining open when high levels of 
bacteria are found.
    The other thing we require is to implement, those States 
that receive grants have to implement measures for tracking and 
identifying sources of pollution, create a public online 
database for each beach with relative pollution and closing 
information posted, and third, ensure that closures or 
advisories are issued shortly after the State find coastal 
waters out of compliance with water quality standards, within 
24 hours of failed water quality tests.
    Now, I know, Senator Lautenberg, you have been an advocate 
for years of the right to know in so many environmental issues 
and health care issues, whether it be Superfund or in this 
case, beaches. So essentially, the heart of this thing is what 
I call, and you often call, the right to know. We are 
essentially improving the right to know by giving people more 
information so they know what is going on.
    We are holding States accountable by requiring the EPA 
Administrator to annually review a grantee's compliance with 
the BEACH Act's process requirements. Grantees have 1 year to 
comply with the new environmental standards, or they will be 
required to pay at least a 50 percent match for their grant 
until they come back into compliance. Current law gives the 
Administrator discretion to require a non-Federal share of up 
to 50 percent.
    So again, I think the bill was good. It was effective for 
the last few years. What we are introducing now I think will be 
more effective, more in line with the theme of the right to 
know, and certainly provides an expanded opportunity to prevent 
pollution problems in the future.
    So again, I just want to thank you and Mr. Bilbray. We are 
going to try, I heard what Chairman Boxer said about trying to 
expedite this. Obviously we will try to do the same thing in 
the House if we can get this bill passed and to the President 
as soon as possible. Thank you.
    [The prepared statement of Mr. Pallone follows:]
     Statement of Hon. Frank Pallone, U.S. Representative from the 
                          State of New Jersey
    I would first like to thank Chairman Lautenberg and Ranking Member 
Vitter for conducting this important hearing. This is an issue that 
Chairman Lautenberg and I have worked for a long time to clean up and 
protect our national beaches.
    Across the country, American families and international tourists 
make over 2 billion trips each year to America's beaches to fish, 
sunbathe, boat, swim, surf, and bird-watch. Our coastal areas produce 
85 percent of all U.S. tourism dollars, fueling a huge economic engine.
    Our nation's beaches are vital, not only to residents of our 
coastal States but also for countless visitors who come to visit each 
year. Our beaches are a tremendous resource for those who come here to 
enjoy them, and they are a huge economic engine for our coastal States. 
In New Jersey alone beaches are the primary driver of a tourism economy 
that means nearly 500,000 jobs and generates $36 billion in economic 
activities for the State each year.
    Next weekend for the 4th of July, thousands of people will flock to 
New Jersey beaches to enjoy everything they have to offer, to celebrate 
our nations independence. During the 4th of July Celebration we want to 
be sure that our beaches are clean and safe for beach goers.
                             2000 beach act
    And thanks to the BEACH Act, a law that I helped to author with 
Senator Lautenberg back in 2000, we have made major strides over the 
last 6 years. The BEACH Act of 2000 helped us improve water quality 
testing and monitoring at beaches across the country, which is critical 
to protecting the health of beachgoers.
    The Act had three provisions: requiring States to adopt current EPA 
water quality criteria to protect beachgoers from getting sick; 
requiring the EPA to update these water quality criteria, with new 
science and technologies to provide better, faster water testing; and 
providing grants to States to implement coastal water monitoring 
programs.
    New Jersey used some of its grant money to become the first State 
in the Nation to launch a real-time Web site that notifies beachgoers 
of the state of their beaches.
                        the beach protection act
    Despite all the strong steps that coastal States and our nation 
have taken since the BEACH Act was signed into law, this Act can still 
be improved, and that's what Senator Lautenberg and I had in mind when 
we introduced the BEACH Protection Act of 2007.
    The BEACH Protection Act, H.R. 2537, is a bill that will help 
ensure that beachgoers throughout the country can surf, swim, and play 
on clean and safe beaches.
    This legislation not only reauthorizes the grants to States through 
2012, but doubles the annual grant levels from a total $30 million 
under the old authorization to a new level of $60 million annually.
    H.R. 2537 will expand the scope of BEACH Act grants from water 
quality monitoring and notification to also include pollution source 
tracking and prevention efforts.
    More importantly this legislation goes further on environmental 
standards than any before. It requires tougher standards for beach 
water quality testing and communication.
    The bill requires that beach water quality violations are disclosed 
not only to the public but to all relevant State agencies with beach 
water pollution authority.
                         rapid testing methods
    The Beach Protection Act mandates the use of rapid testing methods 
by requiring the EPA to approve the use of rapid testing methods that 
detect bathing water contamination in 2 hours or less. Grantees must 
use those methods within 1 year of approval.
    This is something that I have been advocating for the last couple 
of years. Current water quality monitoring tests, like those used in 
New Jersey, only test for bacteria levels and take 24 to 48 hours to 
produce reliable results, during which time many beachgoers can be 
unknowingly exposed to harmful pathogens. More immediate results would 
prevent beaches from remaining open when high levels of bacteria are 
found.
    We are requiring each State receiving BEACH Act grants to:
     Implement measures for tracking and identifying sources of 
beachwater pollution;
     Create a public online database for each beach with relevant 
pollution and closure information posted; and
     Ensure that closures or advisories are issued shortly after the 
State finds coastal waters out of compliance with water quality 
standards.
    We are also holding States accountable by requiring the EPA 
Administrator to do annual reviews of grantees' compliance with BEACH 
Act process requirements. Grantees have 1 year to comply with the new 
environmental standards, otherwise they will be required to pay at 
least a 50 percent match for their grant until they come back into 
compliance. (Current law gives the Administrator discretion to require 
a non-Federal share of up to 50 percent.)
    Mr. Chairman, protecting our coasts and oceans is critical to the 
local economies that depend on them for billions in tourism and 
recreation revenues.
    Once again I would like to thank the Chairman and the Ranking 
member for holding this hearing and for their leadership on this 
important issue. I look forward to working with my colleagues across 
the Capitol on protecting New Jersey's, and our nations, beaches for 
years to come.

    Senator Lautenberg. Thank you very much, Congressman 
Pallone, and for the association that you brought up about the 
right to know. I think people have a right to know a lot about 
Government, a lot more than we get to know. We work on that 
together, and I look forward to continuing that.
    Congressman Bilbray, I appreciate your coming here today, 
appreciate the help that you gave to us in 2000. I look forward 
to your testimony.

 STATEMENT OF HON. BRIAN P. BILBRAY, U.S. REPRESENTATIVE FROM 
                    THE STATE OF CALIFORNIA

    Mr. Bilbray. Thank you very much, Mr. Chairman. Let me say 
sincerely, I appreciate the chance to be here today. I 
appreciate the fact that you were wiling to be my partner 
working with the Congressman to get the original BEACH bill 
through. Let me just tell you, as a lifelong surfer, I was very 
proud of the fact that the BEACH bill is the first piece of 
Federal legislation passed in the United States that mentioned 
surfing specifically.
    [Laughter.]
    Mr. Bilbray. So we make history in different ways. I am 
very impressed with your statement that half of America is 
going to go to the beaches this summer. My only question would 
be, what the heck is the rest of the half doing? That is 
astonishing.
    But let me just say that your support was essential in the 
106th, and I really do appreciate that. I think that when we 
move ahead with that, you may know that I am a former lifeguard 
and presently a surfer, but you may not know that I am a former 
Mayor of a beach community. Actually, I grew up in one of the 
most polluted cities in America, down on the Mexican border 
south of San Diego, polluted by a foreign government that the 
Federal Government is still grappling with that problem. So I 
grew up as a child going down to the beach and seeing those 
orange pollution signs down there. This is an issue that does 
affect you, and it is kind of hard to tell a 7, 8, 10 year old, 
12 year old young man that he can't go in the water when it is 
July in California. The challenge here is how do we make this 
work.
    I also was a county supervisor. In California, the 
supervisors are in charge of water quality monitoring and 
public health protection. One of the things that I was very 
excited about, our success with the BEACH bill, was that it 
wasn't just a traditional command and control top down, that we 
recognized our Federal system and we recognized the real source 
out there to protect the American people is not necessarily the 
Federal Government, but the Federal Government aiding and 
encouraging the local communities to do what they do best. 
After all, who has more of a vested interest in water quality 
and public health than the local neighborhoods?
    I think that was a big success with our BEACH bill, is that 
we empowered the local community to not only know but get the 
job done. I am sure that we all know the different success rate 
that we have been able to go through with the extensive 
numbers. I think that just looking at the increases in the 
water quality criteria from 11 to 35 States that are actually 
actively involved.
    Let me just say, as we go into this, it is not only the 
cooperative effort, but the personal interrelationships that 
this may have. It was sort of interesting for me to see my son 
and daughter on the Internet, not only finding out how good the 
surf was at a certain beach, so they didn't have to drive 
around polluting the air and putting out the greenhouse gases. 
They knew right where the surf was good. But at the instant 
they checked out the surf, right on the screen, was the water 
quality ratings and the ability for them to have that 
integrated into their decisionmaking process, not just, has the 
wind blown out the surf, is the swell good, but is the water 
clean and has it been clean.
    But there is this big missing issue, and I will just tell 
you, I think that the real-time testing is absolutely 
essential. As the Congressman pointed out, there is this delay. 
But the delay isn't that the beaches aren't posted. The public 
health officials, when there is an incident like rain, maybe a 
sewer spill, or they may suspect, they always post. Because 
they are always doing more than, they always err on the side of 
safety.
    The trouble is, that is known by our young people and by 
our citizens that, look, when a surfer goes and checks out the 
surf and sees that red sign up, he knows, well, it rained 2 
days ago, so they just posted it, it doesn't mean it is 
polluted. We need that real-time test to bring credibility to 
those signs when they go up, that they only go up when the 
number comes up positive.
    So they really do have the impact that we want them to have 
and they originally had. So I think it is essential that we 
make this system as real-time and as responsive as possible. 
Because those who are using the beaches are sophisticated 
enough to know the safety margin and will push that margin. So 
we need to make sure there are efficiencies in posting as close 
as possible.
    That is why I introduced the Safe Water Improvement 
Modernization Act, the SWIM Act, of 2007. Because there are 
technologies out there that can do this real-time testing. The 
fact is, sadly, right now, with the incubator system we have, 
it is not just 12 to 24, it ends up being 3 days that signs are 
up. So those are 3 days that there is a question that we want 
to eliminate for the safety purposes.
    Again, I want to thank you very much for your support and 
your cooperative effort with myself back in the old days, when 
we were getting this through and it was essential. It was a 
great bipartisan approach to protecting our children. After 
all, we never know if our grandchildren are going to be looking 
on the Internet to check out the surf and find out where the 
clean beaches are 10 years from now.
    So God bless you and thank you for your efforts, Senator.
    [The prepared statement of Mr. Bilbray follows:]
      Statement of Hon. Brian P. Bilbray, Representative from the 
                          State of California
    Chairman Lautenberg, Ranking Member Vitter and Members of the 
Committee, thank you for the opportunity to join in the discussion on 
reauthorization issues concerning the Beaches Environmental Assessment 
and Coastal Health (BEACH) Act (Public Law 106-284). This was 
legislation Chairman Lautenberg and I were proud to author in the 106th 
Congress. The legislation was passed with overwhelming bipartisan 
support and was signed into law by President Clinton.
    President Theodore Roosevelt once said, ``The nation behaves well 
if it treats the natural resources as assets which it must turn over to 
the next generation increased, and not impaired, in value.'' These 
words have resonated strongly with me, as a lifelong outdoorsman, 
former lifeguard, and through my career in elected office. This 
statement is as applicable today as it was when he said it more than 
100 years ago. We have an obligation to preserve and enhance our 
natural resources so that our children and grandchildren have the 
opportunity to enjoy the same quality of life we do today.
    For this reason, the BEACH Act becoming law was a tremendous 
achievement for our Nation. Growing up along the coast in San Diego, I 
saw how harmful bacteria and pathogens in the water can affect the 
health of both children and adults alike. Without basic standards for 
water quality evaluation, the health of our coastal waters and those 
that enjoy it would be threatened.
    The successful implementation of the BEACH Act throughout the past 
7 years has led to significant improvements in public health according 
to a report released by the Environmental Protection Agency (EPA) last 
October. Key findings I wanted to highlight to the Committee included:
    States have significantly improved their assessment and monitoring 
of beaches; the number of monitored beaches has increased from about 
1,000 in 1997 to more than 3,500 out of approximately 6,000 beaches, as 
identified to EPA by the States for the 2004 swimming season.
    EPA has strengthened water quality standards throughout all the 
coastal recreation waters in the United States; the number of coastal 
and Great Lakes States with up-to-date water quality criteria has 
increased from 11 in 2000 to 35 in 2004.
    EPA has improved public access to data on beach advisories and 
closings by improving its electronic system for beach data collection 
and delivery systems; the system is known as ``eBeaches.'' The public 
can view the beach information at http://oaspub.epa.gov/beacon/beacon--
national--page.main.
    EPA is working to improve pollution control efforts that reduce 
potential adverse health effects at beaches. EPA's Strategic Plan and 
recent National Water Program Guidance describe these actions to 
coordinate assessment of problems affecting beaches and to reduce 
pollution.
    EPA is conducting research to develop new or revised water quality 
criteria and more rapid methods for assessing water quality at beaches 
so that results can be made available in hours rather than days. 
Quicker tests will allow beach managers to make faster decisions about 
the safety of beach waters and thus help reduce the risk of illness 
among beachgoers. \1\
---------------------------------------------------------------------------
    \1\ Environmental Protection Agency, Implementing the BEACH Act of 
2000, Report for Congress, October 2006, Available at: http://
www.epa.gov/waterscience/beaches/report/full-rtc.pdf.
---------------------------------------------------------------------------
    While the progress we have made is impressive the BEACH Act can be 
improved to be even more effective in protecting public health, by 
incorporating new developments in the science behind water quality 
testing. Since 1986, the EPA has tested pathogens in the water through 
culture testing. Unfortunately, this antiquated method which is still 
in use today can take upwards of 72 hours to yield results. Conversely, 
new advances in molecular testing show tremendous promise, both in 
rapidly identifying potential pathogens in coastal waters, and in 
reducing the amount of time required to provide test results to 
appropriate public health officers.
    Molecular testing has been shown to identify bacteria in only 4 
hours, rather than 72. Additionally, culture methods cannot 
differentiate between non-human and human organisms without additional 
testing. As a result, many beaches are closed unnecessarily and for too 
long due to detection of organisms that do not pose a threat to humans. 
Unlike culture methods, molecular tests can be designed to have unique 
specificity only for bacteria that are associated with human illness. 
This specificity is due to the molecular test's ability to recognize 
species specific bacterial DNA, a feature that prevents ``false-
positive'' detection of irrelevant organisms.
    In the past Congress, several of my House colleagues undertook 
efforts to reauthorize the BEACH Act. This renewed commitment 
underscores the importance of this legislation. I look forward to 
working with my colleagues and with this committee, to ensure the 
reauthorization of the BEACH Act, so that the significant strides we 
have made to date can be sustained and enhanced.
    To this end, I introduced H.R. 909, the Safe Water Improvement and 
Modernization (SWIM) Act of 2007. This legislation will reauthorize the 
programs in the BEACH Act until 2012 as well as authorize the EPA to 
complete a 2-year study of the full capabilities of molecular testing. 
It is my hope that this study will open the door to quicker and more 
efficient testing times which will better protect the health and well 
being of those that want to enjoy our recreational waters.
    Again, thank you for the opportunity to discuss the landmark BEACH 
legislation, and how we might continue to work together to build on its 
successes. I look forward to working with this committee, and would be 
pleased to address any questions you may have.

    Senator Lautenberg. Thank you very much.
    You and I share another note of distinction. We were in, we 
were out, we were in.
    Mr. Bilbray. I was thinking, I was very appreciative of 
that in California, the voters can be environmentally 
sensitive, and they believe in recycling Congressmen.
    [Laughter.]
    Senator Lautenberg. The other thing that struck me, new 
information, that is, without taking too much time, a Web site 
on surfing, how does the data get into the system? Who monitors 
whether surfing is good? Does it measure swells? What does it 
tell you?
    Mr. Bilbray. NOAA has interlinks. There are actually these 
little gnomes who actually put all this stuff together and that 
don't have a real life. I think this is what some of these kids 
do when----
    Senator Lautenberg. Putting them out of the computer 
business.
    Mr. Bilbray [continuing]. The sun goes down. But actually, 
you have NOAA weather, they can predict swells, they can tell 
you exactly directions, they can tell which facing beaches may 
or may not.
    But then the other key is, you have real-time, actual 
visuals of what it looks like at that time on the Internet. So 
instead of the old days when we had to drive down to the beach 
and check out each point and see if Swami's was breaking or 
Black's Beach or Doheny, you actually can click and look and 
actually choose where you are going, you can tell the wind 
conditions and the chop and the swell conditions.
    Senator Lautenberg. Sounds swell to me.
    [Laughter.]
    Senator Lautenberg. Thank you very much, each of you. I 
couldn't resist. Humor gets in my way sometimes. Thank you each 
very much for being here, for continuing. Let's continue to 
work together and see if we can improve the condition that is 
already a lot better as a result of the work we have done in 
the past.
    Now we will hear from our second panel. Mr. Benjamin 
Grumbles, Assistant Administrator for Water at U.S. EPA. Anu 
Mittal, Director of the National Resources and Environment Team 
at the U.S. GAO. We look forward to hearing from you.
    I want to particularly thank Mr. Grumbles for being here. 
He was planning a trip to the West Coast, but changed his plans 
to join us this day. I consider that a real measure of your 
interest in this subject and your willingness to give us your 
views. If you would start, observing the 5-minute rule. We are 
not too rigid, but anything over 25, we are just not going to 
accept.
    [Laughter.]

STATEMENT OF BENJAMIN H. GRUMBLES, ASSISTANT ADMINISTRATOR FOR 
          WATER, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Grumbles. Thank you, Mr. Chairman. It is a real honor 
to be here, to appear before you and the subcommittee. Although 
there is that temptation to say, as much as I enjoy being here, 
I would rather be at the beach, monitoring the beach, and 
continuing to work to ensure clean and safe beaches.
    I do also want to say, Mr. Chairman, I commend you for your 
efforts in moving the Clean Beaches, the week of Clean Beaches 
Sense of Congress. It sends some very powerful and strong 
messages. It is also similar to the proclamation the President 
issued for June as the National Oceans Month. So there is a 
tremendous amount of focus and attention, as there should be, 
on the coasts and beaches, because they do define our country. 
It is important for the environment and for the economy to 
continue to make progress on ensuring those beaches are clean 
and safe.
    EPA is delighted to be here to discuss the successes of 
implementing the BEACH Act, and current activities of the 
Agency, and challenges as well as the opportunities ahead. Mr. 
Chairman, as you and your colleagues have stated, the real 
focus should be, and is in EPA, on sound science, on pollution 
prevention and on public notification, and public awareness.
    I do think it is important to spend a minute to talk about 
where we have been over the last several years and what we have 
done to implement the BEACH Act, which is truly landmark 
legislation. It took a long time for it to finally get across 
the finish line, but it has been worth it. It is a very 
important framework for success.
    It is very important to recognize that the number of 
monitored beaches since the BEACH Act and since EPA's efforts 
to implement the Act has increased from about 1,000 to 3,500. 
Actually, 3,700 beaches, that is good news. It ensures greater 
vigilance and progress.
    The other success that Congressman Bilbray mentioned, the 
number of States with stronger water quality standards has gone 
from 10 to 35 over the last several years. Part of that was due 
to EPA stepping in in November 2004 and promulgating the 
Federal standards to strengthen previous water quality 
standards that relied on fecal coliform as opposed to E-coli 
and Enterococcus as the indicators.
    Another major success we view as progress is increased 
public awareness. We have the eBeaches Web site. We work with 
other organizations and of course with our partners at States 
to get out more information about closures and advisories to 
make this as successful as possible. Then of course, there is 
the grants program that was authorized in the BEACH Act that 
Congress continues to support and that the Administration and 
EPA continues to support. That is translated into $52 million 
in assistance, probably another $10 million as the 
appropriations bills are working their way through. That is to 
help the States develop and implement monitoring and 
notification programs.
    I do want to mention that a key area, a current effort and 
focus of the Agency is building and continuing to improve the 
partnership with States. I know that there is legislation that 
is introduced, and it is important to be having these hearings. 
It is also very important, just as it was in 2000 and years 
leading to the Act's passage, to coordinate with the States, to 
work with the States, because they are the implementers in so 
many respects under the Clean Water Act.
    Sound science is a key for us, Mr. Chairman. It has been 
stated very well. We see great promise in the rapid, reliable 
tests. The methods as a focus for us, so that the Quantitative 
Polymerase Chain Reaction and other types of methodologies that 
can reduce from several days to 2 to 3 hours in terms of the 
lag time in getting results is perfected and advanced. That is 
a priority for us as well.
    Also, I think it is important to emphasize the 
epidemiological studies that the Agency has been carrying out 
over the last several years; linking the science, the impacts 
of pathogens in waters with gastrointestinal or other problems, 
and using those studies that have occurred in the Great Lakes 
and also now are occurring on other coasts, to also improve the 
methodologies. Because we do need to continue to work on the 
science the microbial biology continues to evolve and it is 
important to capture that knowledge and put it into practice.
    The last thing I would say, Mr. Chairman, is pollution 
prevention. Pollution prevention is the key for us as well, 
working with States and cities to further control sewer 
overflows, storm water. Also tracking through sanitary surveys. 
The Agency has been carrying out a program of grants in the 
Great Lakes. We support the idea of continued efforts to use 
sanitary survey to help get to the source of the problem.
    Mr. Chairman, I would be happy to answer any questions you 
may have and again, appreciate your leadership on having this 
hearing and the support for the BEACH program.
    [The prepared statement of Mr. Grumbles follows:]
 Statement of Benjamin H. Grumbles, Assistant Administrator for Water, 
                  U.S. Environmental Protection Agency
    Mr. Chairman and Members of the Subcommittee, I am Benjamin H. 
Grumbles, Assistant Administrator for Water at the United States 
Environmental Protection Agency (EPA). Thank you for the opportunity to 
discuss the accomplishments of and the challenges for the Beach 
Program, EPA's current actions to further advance the Beach Program, 
and our vision for the future of this national public health activity.
    America's oceans and coasts are a national treasure. The President 
has proclaimed June 2007 as National Oceans Month. Our nation's ocean, 
coastal, and Great Lakes waters have enormous environmental and 
economic value. In the words of the U.S. Commission on Ocean Policy, 
``Our oceans and coasts are among the chief pillars of our nation's 
wealth and economic well-being.'' More than half of the country's 
population lives near a coastal area, and the great majority of 
Americans visit coastal areas to participate in recreational 
activities. More specifically, it is estimated that one third of all 
Americans visit coastal areas each year making a total of 910 million 
trips while spending over $40 billion annually.
    Protecting the beach-going public from illness is a national 
priority. Since the Beaches Environmental Assessment and Coastal Health 
(BEACH) Act's enactment in 2000, EPA, States, and local partners have 
made substantial progress in implementing its requirements and taking 
actions to protect the health of swimmers in our coastal recreation 
waters.
    In this testimony, I will describe recent EPA work to support beach 
monitoring and public reporting; our activities to strengthen existing 
water quality standards; research to support developing new or revised 
recommended water quality criteria for the purpose of protecting human 
health in coastal recreation waters; and cross-Agency efforts to 
leverage other Clean Water Act programs to reduce pollution and 
sources.
    Although we have made substantial progress in implementing the 
BEACH Act, I want to be clear that EPA recognizes there is important 
work left to do in the areas of additional research and updating 
existing recreational criteria. As I will describe further, EPA and 
others have conducted a substantial amount of research since 2000. More 
studies are needed to create a sound scientific foundation for new 
criteria, as I will discuss later.
                            i. achievements
    In order to better frame a discussion of ongoing and future 
activities, I would like to begin by highlighting some of the 
significant accomplishments that EPA has achieved under the Beach Act 
since 2000, in partnership with States and Territories.
    <bullet> States have significantly improved their assessment and 
monitoring of beaches; the number of monitored beaches has increased 
from about 1,000 in 1997 to more than 3,500 in 2006.
    <bullet> EPA has strengthened water quality standards throughout 
all the coastal recreation waters in the United States. All 35 States 
and Territories with coastal recreation waters now have water quality 
standards as protective of human health as EPA's recommended water 
quality criteria--an increase from 11 States and Territories in 2000.
    <bullet> EPA has improved public access to data on beach advisories 
and closings by improving the Agency's electronic beach data collection 
and delivery systems. Today, BEACH Act States easily transmit data to 
EPA on their Beach Monitoring and Notification Programs through a 
system known as ``eBeaches.'' The data is uploaded onto a nationally 
accessible Internet site that is easily reached by the public.
    <bullet> In the area of research, EPA has conducted cutting-edge 
research on the use of molecular-based methods for more quickly 
detecting indicators of fecal contamination in coastal waters. The 
Agency's Office of Research and Development has also completed 
critically needed epidemiological studies correlating the results from 
these methods to the incidence of gastro-intestinal illness. These 
molecular methods show great promise for providing quicker test results 
and allowing beach managers to make faster and better decisions about 
the safety of beach waters. Faster and better decisions are good for 
public health and good for the economy in beach communities. We share 
the goals of the public and State beach managers for making the best 
decisions possible about keeping beaches open or placing them under 
advisory.
                          ii. current efforts
A. Improving Beach Monitoring and Public Notification
    One of the best indicators of progress to date is the fact that all 
eligible States and Territories are now implementing the beach 
monitoring and public notification provisions of the BEACH Act.
            BEACH Act Grants
    EPA's Beach Act grants are a cornerstone for Clean Beaches Program. 
As you know, the BEACH Act authorizes and Congress appropriates funds 
for EPA grants to States, Territories, and Tribes to develop and 
implement monitoring and notification programs. Since 2000, EPA has 
awarded approximately $52 million of grant funds under the BEACH Act to 
all 35 eligible coastal and Great Lakes States and Territories. We 
expect to award approximately $10 million dollars more this year.
    EPA has been evaluating whether to revise the existing allocation 
formula for distributing beach grant funds. EPA has awarded grants to 
all eligible States that applied for funding using an allocation 
formula that the Agency developed in 2002. EPA consulted with various 
States and other stakeholders to develop a formula that uses three 
factors--beach season length, beach miles, and beach usage. (Because 
the data for beach miles and beach usage were not readily available, 
shoreline length and coastal population have been used as 
``surrogates.'') This formula has been effective in creating a strong 
foundation for the current program, but it presently does not have the 
flexibility to adjust new year grant allocation levels to reflect the 
level and rate of grant utilization in prior years.
    In 2006, EPA formed a State/EPA workgroup to examine the current 
formula, assess current programs and their monitoring/notification 
practices and develop options for possible changes to the allocation 
formula. EPA reviewed a number of allocation formula scenarios during 
the course of this process. One of the key issues identified by the 
State/EPA workgroup is how to ensure that any readjustment to the 
formula does not occur at the cost of a particular State being unable 
to continue its current monitoring and reporting activities. No final 
decision on possible allocation formula revisions has been made at this 
time.
    As we look at different allocation formula scenarios, we are 
completely mindful of the need for maintaining State programs. EPA 
plans to request public comment on a range of different options later 
this fall. We look forward to receiving valuable information and 
feedback from States, beach monitoring groups, and interested 
stakeholders on how to proceed forward.
B. Program Development and Implementation
            National Beach Guidance and Required Performance Criteria 
                    for Grants
    To ensure effective use of BEACH grants, EPA has undertaken a 
substantial collaboration effort with States and interested parties to 
develop a basic framework for beach monitoring and notification 
programs. The Agency issued comprehensive national guidance in June 
2002 which specifies nine performance criteria for implementing State 
beach monitoring, assessment, and notification programs.
            State and Local accomplishments
    The real ``on the ground'' effect of this guidance in combination 
with annual grants has been to enable the States and Territories to 
establish or greatly improve their beach programs. The strength of 
these programs is described in EPA's 2006 Report to Congress on the 
BEACH Act which contains 15 pages of State-by-State program summaries 
followed by another thirty pages of detailed accomplishments.
            eBeaches--Public Reporting
    The BEACH Act also directs EPA to establish, maintain, and make 
available to the public a national coastal recreation water pollution 
occurrence database. In response, EPA has established an online 
electronic data collection and reporting system called ``eBeaches''. 
The system provides for fast, easy, and secure transmittal of beach 
water quality data; it improves public access to State-reported 
information about beach conditions (along with information on health 
risks associated with swimming in polluted water); and it saves time 
and money by allowing electronic data transfer and eliminating paper 
forms and outdated methods of data entry.
            National List of Beaches
    The BEACH Act also directs EPA to maintain a publicly available 
list of waters that are subject to a monitoring and notification 
program, as well as those not subject to a program. States and 
Territories with BEACH Act implementation grants identify lists of 
coastal recreational waters that are subject to the program and submit 
this information to EPA.
    The Agency has compiled this information into the National List of 
Beaches; the list was published in the Federal Register on May 4, 2004 
(69 FR 24597); and the list will be updated as new information becomes 
available from States and Territories. The list provides a national 
picture of the extent of beach water quality monitoring, and the States 
are using their BEACH Act grants to refine their inventory of beaches.
            Great Lakes Sanitary Survey
    The Great Lakes Regional Collaboration recommends activities to 
improve beach water quality. To that end, EPA is working with the Great 
Lakes States to develop and conduct beach sanitary surveys to identify 
sources of contamination at Great Lakes beaches. These surveys also 
will help beach managers inform the public about any potential 
pollution impacting a beach, which will support the public in making 
better informed decisions before swimming to reduce their risk of 
swimming-related illness. The final sanitary survey form has been 
developed and is ready to be pilot tested. EPA's Great Lakes National 
Program Office has worked tirelessly to prepare grants using funds 
appropriated in fiscal year to fund pilots at 60 Great Lakes beaches, 
including beaches on each of the Great Lakes, in the near future.
    I am pleased to report that six of the seven States (Michigan, 
Minnesota, Wisconsin, Illinois, Pennsylvania, and New York) that 
applied for a sanitary survey grant have received their award.
C. Conducting Research on Critical Science Issues
            Current Research Accomplishments.
    As I mentioned in my opening statement, a key area of remaining 
work under the BEACH Act is to complete the science to support 
developing new or revised recommended recreational water quality 
criteria. Under CWA section 304(a)(9), EPA is required to publish new 
or revised water quality criteria for pathogens or pathogen indicators 
for the purpose of protecting human health in coastal recreation 
waters. Under section 104(v) of the CWA, EPA is required to complete 
studies to provide additional information for use in developing these 
new or revised recommended water quality criteria.
    To date, EPA has conducted significant research on the use of 
molecular-based methods to allow faster reporting. The Agency also has 
completed critically needed epidemiology studies in fresh waters. EPA 
has also completed the first comprehensive study evaluating how 
different factors such as water depth, distance from the beach, and 
time of day affect an individual's exposure and potential risk from 
swimming.
            EPA's NEEAR Water Study and Methods Development
    EPA's Office of Research and Development (ORD), in consultation 
with the Office of Water, initiated the very comprehensive National 
Epidemiological and Environmental Assessment of Recreational (NEEAR) 
Water Study in 2001. It is a collaborative research study between EPA 
and the Centers for Disease Control (CDC). EPA is also coordinating the 
study with the U.S. Geological Survey (USGS) and other interested 
agencies.
    The indicators and rapid methods that EPA is evaluating through the 
NEEAR study are DNA-based microbiological indicators of fecal 
contamination. The goal of the NEEAR research is to produce information 
defining the relationship between water quality, as measured with rapid 
indicators of fecal contamination, and swimming-associated health 
effects.
            Indicator Methods Development
    The goal is to help beach managers to quickly test the water in the 
morning and make results about the safety of beach waters available in 
hours, rather than days. Providing faster results to beach managers and 
the public should help reduce the risk of waterborne illness among 
beachgoers as well as re-open the beach earlier. A number of rapid 
methods were evaluated for potential use in the NEEAR Water Study, but 
only the few that met EPA's performance criteria were ultimately 
included. One of the more promising methods that EPA is evaluating is a 
molecular method called the Quantitative Polymerase Chain Reaction 
(qPCR) Method.
            Epidemiology Study
    The second part of the NEEAR Water Study includes epidemiology 
studies that combine health data and water quality analyses using the 
selected indicator methods. The epidemiology studies measure human 
health outcomes including gastrointestinal illness; ear, eye, and 
respiratory infections; urinary tract infection; and skin (rash) 
endpoints.
    The NEEAR Water Study team has completed four summers of data 
collection. These studies included a 1-year pilot study and two full-
year studies in the Great Lakes. In addition a partial study was 
conducted along the Gulf coast. EPA also conducted a recreational 
monitoring characterization study before starting the Great Lakes 
studies. The data demonstrate that swimmers exposed to higher levels of 
indicators as measured using rapid methods, experience more illness 
than non-swimmers, or swimmers exposed to lower levels of indicators. 
Analysis of the data from these Great Lakes studies shows a promising 
relationship between one of the rapid indicators methods (qPCR) and 
gastrointestinal illness among swimmers.
            Monitoring and Modeling Studies
    EPA has also been working to improve the science and integration of 
monitoring and modeling for microbial contamination in coastal 
recreation waters. My earlier discussion describes some of EPA's 
efforts in this area. There are also other EPA efforts to improve 
monitoring methodologies and techniques for coastal recreation waters. 
The Agency wants to help beach managers with their efforts to provide 
the public with real-time information on the condition of their 
beaches, and EPA is working on predictive modeling tools that promise 
faster results than single sample daily monitoring. The USGS, supported 
in part by EPA also is working on the development and use of predictive 
models to deliver near-real time data on the public health 
acceptability of beaches in some area of the Great Lakes.
           iii. lessons learned from beach act implementation
    Mr. Chairman, EPA is working to publish new or revised recommended 
water quality criteria as required by the BEACH Act. There are many 
significant science issues that we believe need to be addressed, and we 
are addressing them.
A. Agency Efforts to Address Scientific and Policy Questions
    EPA's review of existing science and our research results have 
raised a series of very significant scientific and policy questions. 
Foremost among these questions are:
    <bullet> How should we address the geographic and temporal 
variability in beach water quality?
    <bullet> How well do the new molecular methods work and how could 
they be applied in other Clean Water Act programs (such as beach 
notification, discharge permits, water quality assessments and TMDLs )?
    <bullet> How should the criteria address the difference between the 
health threats posed by human vs. non-human sources of pollution?
    <bullet> How can we best address significant variability in 
measurements at beaches--spatially and temporally?
    We need to allow the science to inform our decisions--we do not 
want to move too quickly--for acting quickly without a sound scientific 
foundation can result in economic consequences for the economies of 
coastal zones or impacts on public health.
    Despite these challenges, I am happy to report that our efforts in 
implementing the BEACH Act have not only provided people with up-to-
date information to enable them to make risk management decisions, but 
it has also served as a motivator for people to identify sources of 
contamination and to take action.
B. Cross-Agency Activities
    The authors of the Clean Water Act had great foresight. They 
believed something had to be done to defend America's water, and they 
understood that meeting the goals of the Clean Water Act depended on 
both the long-term protection of water quality and the involvement of 
Federal, State and community partners.
    We recognize that the BEACH Act focus on protecting coastal 
recreation waters also extends to protecting America's coastal 
estuaries, and our National Estuary Program has done significant work 
in restoring and protecting our country's watersheds. The National 
Estuary Program's collaborative approach to addressing watershed 
protection and restoration is proving to be an effective model for how 
Federal, State, and community partners can work together effectively. 
After two decades of building partnerships across each of the 28 
nationally recognized watersheds, we are seeing impressive 
environmental results.
    In December 2004, this Administration released a comprehensive 
Ocean Action Plan (OAP) including 88 actions and a set of principles to 
strengthen and improve U.S. ocean policy. The OAP aligns with a number 
of EPA priorities, including improving water quality monitoring and 
supporting regional, watershed-based collaboration for protecting the 
health of our Nation's ocean and coastal waters.
    I mentioned earlier the Great Lakes Regional Collaboration and 
EPA's work with the Great Lakes States to develop and conduct beach 
sanitary surveys to identify sources of contamination at Great Lakes 
beaches.
    EPA has also been working across Agency programs to control 
bacteria/pathogen input into waters from Combined Sewer Overflows 
(CSOs) which occur in 770 communities around the country. CSOs can 
affect the quality of recreational waters by releasing untreated 
wastewater potentially containing high levels of pathogens. EPA, 
States, and local governments are making steady progress toward 
reducing overflows under the 1994 CSO Policy. The Agency is also 
working very closely with particular States, such as Indiana, to ensure 
that water quality standards, permitting, and enforcement are 
effectively coordinated so the entire water program is best leveraged 
for reducing the impact of CSOs. EPA is also encouraging State, tribal 
and local governments to adopt voluntary guidelines for managing 
onsite/decentralized sewage treatment systems and using Clean Water 
Revolving Loan Funds to finance systems where appropriate.
                         iv. future challenges
A. Identifying Future Science Needs
    The BEACH Act requires EPA to develop new or revised recommended 
water quality criteria for coastal recreation waters. Since EPA issued 
its current recommended recreational water quality criteria over 20 
years ago, there have been significant advances in molecular biology, 
microbiology, and analytical chemistry that should be considered and 
factored into the development of new or revised criteria. EPA has been 
working to consider these advances as it develops the scientific 
foundation for new criteria. EPA decided that the best approach to 
complete development of that scientific foundation would be to obtain 
individual input from members of the broad scientific and technical 
community on the critical path research and science needs for 
establishing scientifically defensible criteria by 2012.
    Accordingly, EPA held the Experts Scientific Workshop on Critical 
Research Needs for Developing New or Revised Recreational Water Quality 
Criteria, on March 26-30, 2007 in Warrenton, Virginia; and invited 42 
outstanding national and international technical, scientific, and 
implementation experts from academia, Federal, State, and local 
government, and interest groups.
    We brought together U.S. and international experts to obtain 
individual input on the critical path research and science needs for 
developing scientifically defensible new or revised Clean Water Act 
Section 304(a) recreational water quality criteria. A Report from that 
meeting identified critical science issues for further study. The 
report is available online at www.epa.gov/waterscience/criteria/
recreation. These issues include:
    <bullet> Need to determine potential human health impacts from 
different sources of fecal contamination;
    <bullet> Need to determine potential human health impacts from 
pathogens in waters across different climatic and geographic regions;
    <bullet> Need to determine an appropriate risk level for the most 
sensitive subpopulation(s); and,
    <bullet> Need to identify appropriate indicators and methods for 
measuring fecal contamination.
    This expert report will be considered by EPA as we develop a 
science plan to help address the previously mentioned critical issues 
necessary to develop recreational water quality criteria. The science 
plan will further inform the Agency as it sets overall research 
priorities.
                             v. conclusion
    We have made significant progress in the implementation of programs 
and practices to protect our coastal recreational waters. EPA plans to 
continue this work to achieve the BEACH Program's long-term goals.
    We will continue to work with this committee, our Federal and State 
partners, and the many stakeholders and citizens who want to accelerate 
the pace and efficiency of coastal recreational water protection and 
restoration.
    Mr. Chairman, this concludes my prepared remarks; I would be happy 
to respond to any questions you may have.
                                 ______
                                 
       Responses by Benjamin H. Grumbles to Additional Questions 
                          from Senator Inhofe
    Question 1. One of the main focuses of the GAO report and the 
various bills introduced by my colleagues address the need for the real 
time testing for pathogens. Can you tell the committee more about the 
work EPA is doing to bring these technologies to fruition and how far 
off do you think they are?
    Response. EPA has been supporting cutting-edge research aimed at 
developing molecular-based methods for rapid detection of fecal 
contamination in coastal waters (e.g., DNA-based tests--also referred 
to as rapid tests) and relating these measurements to human illness at 
beaches. These new test methods can be used by laboratories to measure 
the number of micro-organisms in a sample in 2 hours or less, because 
they do not require 24-48 hours to grow the organisms in culture medium 
(e.g., in Petri dishes), which has been the practice for decades. The 
rapid methods rely on technology that measures in a water sample the 
amount of DNA of organisms that are found in fecal matter. Even though 
the assay time is decreased significantly and, based on the data from 
the current studies' application of the rapid methods, provide more 
accurate assessments of recreational water quality, as discussed below, 
this does not mean that the entire process of sampling to beach manager 
notification occurs in 2-hours.
    EPA has already completed four major epidemiology studies using 
these new DNA-based tests and is in the process of conducting two more 
studies this summer at marine beaches in Rhode Island and Alabama. EPA 
expects to be conducting additional similar studies over the course of 
the next 3 years to evaluate rapid tests for their use in recreational 
water quality criteria. EPA's research will not only include the rapid 
methods for measuring the concentration of currently recommended 
indicator organisms, but also addresses the challenge of identifying 
additional or complementary indicators to the current recommended 
Enterococcus and E. coli bacterial indicators. A list of studies 
initiated and completed by EPA is attached at the end of this document.
    While rapid tests are sometimes referred to as ``real-time'' tests, 
they are not in fact real-time tests, as there is still a delay between 
water sampling and obtaining test results. Even though these tests show 
great promise in being able to substantially reduce (by more than \1/
2\) the time required to determine the amount of fecal contamination in 
waters and to return the results to beach managers they will not 
shorten the time required to collect water samples and deliver them to 
the test laboratory (typically 4 to 5 hours or longer). Nor will they 
shorten the time required to convey test results to the appropriate 
authorities and the public (1 to 2 hours or more). Additionally, there 
are a number of technical challenges that must be addressed before the 
rapid methods can be used in routine beach monitoring programs. Among 
the other aspects of the rapid methods' technology that EPA is 
addressing in its research is the additional challenge in 
interpretation of the rapid methods results when compared with culture 
methods. For example, the rapid methods do not currently distinguish 
between genetic material from live and dead indicator organisms. 
Further, a better understanding of the detection level characteristics 
of the rapid methods, relative to background organism levels, is 
needed.
    Still, these rapid tests have several benefits. They shorten the 
time from when poor water quality occurs to when a test can confirm 
that the water quality is in fact poor. This would shorten the time it 
takes to post an advisory or to close the beach during poor water 
quality conditions, and thereby reduce potential public health risk. 
The shorter test period would also shorten the time required to remove 
the advisory and/or reopen the beach when water quality improves.
    Before any new test can be required to be used, the EPA will have 
to complete additional studies at more locations to ensure that the 
data are representative of a broad range of geographic and climactic 
conditions. In addition, for official EPA approval of any standardized 
method, it must undergo an interlaboratory validation process. EPA 
began the methods validation process in spring 2007, and additional 
work is needed before EPA officially approves the method. State and 
local public health officials use the results of monitoring to make 
health-based decisions to close or open a beach, or to issue or lift a 
beach advisory. These officials need to know that the analytical method 
they use provides reliable and reproducible results for the right 
indicator; therefore, States typically only use methods that have 
already been validated and approved by EPA. Further, to be able to 
bring a faster test into routine use, States also need to have the 
confidence that issues related to the purchase of test equipment, 
training, laboratory capacity, and certification of laboratories will 
have been addressed. EPA recognizes that as we move forward in the 
development of new or revised criteria, consideration of these issues 
must be part of the process.

    Question 2. Recognizing that statutory deadlines have passed, how 
important is it that EPA is given ample time to conduct comprehensive 
scientific epidemiological studies of pathogens and pathogen indicators 
before finalizing a new water quality criterion? Can you describe for 
the committee what EPA has done with regard to the requirements to 
conduct the studies and develop new criteria since passage of the BEACH 
Act of 2000?
    Response. EPA and its partners (researchers as well as States) need 
the time to do the necessary research to ensure a sound scientific 
foundation for new water quality criteria. We have made a strong start 
but have not come as far as we need to. EPA has invested approximately 
$14 million since 2000 on research to better understand pathogens and 
pathogen indicators in recreational waters. This research includes: 
four epidemiological studies in the Great Lakes, the start of a marine 
study in Biloxi Mississippi in 2005, two ongoing marine epidemiology 
studies in Alabama and Rhode Island this summer, the Environmental 
Monitoring for Public Access and Community Tracking (EMPACT) Beaches 
Project, reported on in August 2005, and work to develop predictive 
models to aid beach managers in making beach advisory decisions. A more 
complete listing of research initiated and completed by EPA is 
attached. While this research answered many questions related to 
pathogens and pathogen indicators, it has also identified and confirmed 
important gaps and questions that we must address in developing sound 
and defensible new or revised criteria. EPA recognizes the essential 
importance of ensuring a sound scientific foundation for new criteria. 
If EPA does not have a sufficient scientific foundation to support 
local advisories, beach managers may make wrong decisions resulting in 
poor public health outcomes (when beaches are left open when they 
should have been closed) or lost revenues associated with unnecessary 
beach closures.
    EPA has openly and aggressively engaged the broader research, 
academic, State, and interested stakeholder community regarding what 
science needs to be done. These stakeholders have raised important 
issues relating to the extent to which EPA criteria based on human 
illness rates associated with swimming in waters contaminated with 
human fecal matter would be over-protective or under-protective for 
waters contaminated with non-human waste, such as waste from wildlife, 
pets, or livestock. Since many beaches in the U.S. are not located in 
proximity to major sources of human waste material, stakeholders 
believe that EPA needs to conduct or support the studies needed to 
better understand the relative risk of these sources before issuing new 
criteria. We believe that doing this additional work and also looking 
at additional indicators and rapid methods that might provide for 
better criteria, applicable to the full range of beach settings, is 
necessary for the development of sound, defensible criteria.
    In March 2007, EPA convened a group of 43 national and 
international technical, scientific, and implementation experts from 
academia, numerous States, public interest groups, EPA, and other 
Federal agencies, at a formal workshop to discuss the state of the 
science on recreational water quality research and implementation. The 
purpose of the workshop was for EPA to obtain individual input from 
members of the greater scientific and technical community on the 
``critical path'' research and science needs for developing 
scientifically defensible new or revised CWA Sec. 304(a)(9) 
recreational ambient water quality criteria (AWQC) in the near-term. 
Near-term needs were defined as specific research and science 
activities that could be accomplished in a 3-year time-frame so that 
results are available to EPA in time to support developing new or 
revised criteria. The new or revised criteria, which would be available 
from EPA in roughly 5 years (2012), should be scientifically sound, 
protective of the designated use, easily implemented by States, 
applicable for broad Clean Water Act purposes, and when implemented, 
provide for improved public health protection.
    Finally, EPA notes that we already have indicator criteria to 
protect against human pathogens at beaches. EPA believes the current 
criteria, based on E-coli and Eenterococci, which have largely replaced 
earlier criteria based on fecal and total coliforms, are serviceable 
until better criteria are available. Pursuant to the BEACHES Act, EPA 
has promulgated criteria based on these indicators for all coastal 
States (including Great Lake States) that did not already have 
comparably protective standards in place. EPA has also been working 
with other States to promote adoption of our currently recommended 
criteria. EPA believes it is important to complete the research 
necessary to ensure that the next generation of indicators and criteria 
represent a genuine improvement over the existing criteria.

    Question 3. There is discussion in U.S. Environmental Protection 
Agency Experts Scientific Workshop report about the variability among 
regions of the country and the potential need for different criteria 
for different types of waters in different parts of the country. 
Stakeholders have also spoken with my office about the need to address 
different uses for recreational waters. Do you anticipate EPA will be 
able to develop criteria to reflect secondary recreational contact and 
the different regions of the country?
    Response. The experts at the Scientific Workshop provided input 
regarding differences in geographic/climactic conditions that should be 
considered to ensure that any new criteria are scientifically 
defensible for application in a wide variety of conditions that occur 
throughout the United States. EPA expects to complete studies for a 
range of geographic and climactic conditions and EPA recognizes the 
possibility that different indicators and methods may be more or less 
appropriate depending upon the location of waters.
    In light of the need for EPA to move as quickly as possible to 
complete the necessary research and issue new or revised criteria to 
comply with the Beach Act requirements for new or revised primary 
contact recreational water quality criteria, EPA does not expect at 
this time to be developing EPA recommended criteria for secondary 
contact recreation. However, we understand that parallel work is 
underway in the wastewater community in Chicago to study the risks to 
humans exposed to waters containing high levels of undisinfected 
treated wastewater through secondary contact recreational activities 
(e.g., use of paddle boats, canoes, etc). EPA will review the results 
of this study and will consider the results of that work as it moves 
forward.
                                 ______
                                 
       Responses by Benjamin H. Grumbles to Additional Questions 
                           Senator Lautenberg
    Question 1. Please provide a copy of the ``Report of the Experts 
Scientific Workshop on Critical Research Needs for the Development of 
New or Revised Recreational Water Quality Criteria'' (U.S. EPA, Office 
of Water, Office of Research and Development, June 8, 2007). We 
understand that there are at least two different versions of the 
Executive Summary that were prepared with this report. Please provide 
copies of all versions of the Executive Summary.
    Response. The full report together with an Executive Summary 
representing the views of 7 Workgroup Chairs is enclosed. For 
clarification, only one Executive Summary was produced in conjunction 
with this workshop. The full report and Executive Summary are available 
on our Web site at: http://www.epa.gov/waterscience/criteria/
recreation/.

    Question 2. Please provide the committee with the science action 
plan and time line for the completion of additional studies and 
research that will be used to develop and publish new or revised water 
quality criteria. If the action plan and time line have not yet been 
developed, please provide the committee with the date they will be 
available and, once they are available, copies of them.
    Response. With respect to recreational water quality criteria, EPA 
is developing a Critical Path Science Plan for Development of New or 
Revised Recreational Water Quality Criteria (CPSP or Science Plan). The 
purpose of the CPSP is to articulate the critical path research and 
science that EPA expects to complete by the end of 2010 to establish 
the scientific foundation for new or revised recreational water quality 
criteria. Additionally, EPA is developing a Criteria Development Plan 
that will outline the steps involved in publishing new or revised 
304(a)(9) criteria after the research is completed.
    The critical research will be informed, in part, by the input on 
essential research and science needs identified by forty-three 
international and U.S. experts who attended a scientific workshop held 
by EPA in March 2007. EPA sponsored the workshop to get individual 
input from the greater scientific and technical community on the near-
term research and science needs to develop new or revised CWA Section 
304(a)(9) criteria, fully supported by the soundest science. Near-term 
needs were defined as specific research and science activities that 
could be accomplished in a 3-year timeframe to support development of 
new or revised criteria by 2012.
    The draft CPSP has been submitted for expedited scientific peer 
review; EPA expects to issue to the public the CPSP before the end of 
the summer 2007. EPA will provide the committee with a copy of the CPSP 
as soon as it is made final.
      attachment a: studies already initiated and completed by epa
    1. Four Great Lakes Freshwater Beach Epidemiological Studies 
evaluating the relationship between water quality and swimming-
associated illness at freshwater coastal beaches;
    2. Method Development Study of qPCR methods for Enterococcus and 
Bacteroides;
    3. Method Evaluation of Off-the-Shelf Technologies for rapid 
methods for indicators of fecal contamination;
    4. Development of Chemical Indicator Study evaluating other 
chemical substances, including coprostanol, urobilin, caffeine, 
acetaminophen, cotinine and codeine as possible indicators of human 
fecal contamination (from sewage);
    5. EMPACT Study collecting data at multiple beaches to be used in 
the development of a monitoring protocols for measuring the quality of 
bathing beach waters;
    6. Study to develop a Virtual Beaches model intended to allow beach 
managers to collect and analyze explanatory variables and develop a 
beach prediction tool;
    7. Matrices Evaluation Study testing the aquatic matrix effects on 
the performance of the qPCR method in order to determine the method's 
applicability beyond the four test sites.

    Senator Lautenberg. Thank you very much, Mr. Grumbles.
    Ms. Mittal, we welcome you and invite you to give your 
testimony now, please.

  STATEMENT OF ANU K. MITTAL, DIRECTOR, NATURAL RESOURCES AND 
       ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Mittal. Thank you, Mr. Chairman. We are pleased to be 
here today to participate in your hearing on the BEACH Act of 
2000.
    Last month, GAO issued a report on the BEACH Act and its 
impact on water quality monitoring at some of our Nation's 
coastal beaches. My testimony today will summarize the results 
of that report.
    As you know, to accomplish the goals of the BEACH Act, EPA 
was required to implement nine specific provisions. We found 
that EPA has implemented 7 of the 9 provisions and as a result, 
all 30 States and 5 territories with coastal recreational 
beaches now use EPA's water quality criteria for beach 
monitoring and the public has better information on the number 
of beaches being monitored and the extent of pollution at these 
beaches.
    However, we also found that EPA has not complied with two 
key requirements of the Act. First, it has not completed the 
pathogen and human health studies that were to be done by 2003. 
Second, it has not published the new water quality criteria 
that were required by 2005. As a result, States continue to use 
outdated criteria to monitor water quality.
    Because actions on these two provisions are several years 
behind schedule and may not be completed until 2011, we 
recommended that EPA provide the Congress with a definitive 
time line for completing these actions. The BEACH Act also 
authorized EPA to make $30 million in grants annually to 
eligible State and territories. However, since 2002, the grant 
program has only been funded at $10 million a year. A 
consequence of this lower funding level is that States receive 
grants that do not reflect their actual monitoring needs. In 
fact, we found that States with significantly greater 
monitoring needs, because they have longer coastlines and 
larger coastal populations, received almost the same amount of 
funding as States with significantly smaller coastlines and 
smaller coastal populations. This relatively flat distribution 
of grants across the States is due to the combined effect of 
the lower funding levels and the way that EPA applies the grant 
formula. We have therefore recommended that if funding for the 
program is not going to increase, then EPA should reevaluate 
the formula.
    We also reviewed how some States have used their BEACH Act 
grants, and found that these grants have helped increase the 
number of beaches being monitored, as well as the frequency of 
the monitoring. Because of this increased monitoring, States 
now know which beaches are more likely to be contaminated, 
which ones are relatively clean and which ones may require 
additional resources. However, we also identified several 
inconsistencies in how the States conduct their beach 
monitoring, how they take water samples, how they make beach 
closure or health advisory decisions and how they notify the 
public if they find a problem. These inconsistencies could lead 
to inconsistent levels of public health protection across the 
States. To address these concerns, we recommended that EPA 
develop specific guidance for the programs the States have 
implemented.
    Although the BEACH Act has helped identify the scope of 
contamination at coastal beaches, in most cases the underlying 
causes of this contamination remain unknown and unaddressed. 
States have told us that they do not have the funds to identify 
what is causing the contamination and to take action to 
mitigate the problem. BEACH Act funds cannot be used for this 
purpose.
    Therefore, we recommended that the Congress consider 
providing some flexibility to the States and allow them to use 
a part of their BEACH Act grants to identify sources of 
contamination and take some corrective action.
    In conclusion, Mr. Chairman, while the BEACH Act has helped 
States improve water quality monitoring, much remains to be 
done if we want to fully protect U.S. beach-goers. EPA needs to 
complete the studies and new water quality criteria that were 
required by the Act. The program needs to be fully funded or 
the grant distribution formula needs to be revised. 
Inconsistencies in States' monitoring and notification programs 
need to be resolved, and funding is still needed to address 
sources of contamination.
    This concludes my prepared statement and I would be happy 
to respond to any questions.
    [The prepared statement of Ms. Mittal follows:]
      Statement of Anu K. Mittal, Director, Natural Resources and 
           Environment, U.S. Government Accountability Office
    Mr. Chairman and Members of the Subcommittee:
    We are pleased to be here today to participate in your hearing on 
the implementation of the Beaches Environmental Assessment and Coastal 
Health Act, known as the BEACH Act. Congress passed the BEACH Act in 
2000, to improve States' beach monitoring programs and processes for 
notifying the public of potential health risks from beach 
contamination. As you know, waterborne pathogens such as bacteria, 
viruses, and parasites can contaminate the water and sand at beaches 
and threaten human health. Contact with or accidental ingestion of 
contaminated water can cause vomiting, diarrhea, and other illnesses, 
and may be life-threatening for susceptible populations such as 
children, the elderly, and those with impaired immune systems. State 
and local health officials may issue health advisories or close beaches 
when they believe levels of waterborne pathogens are high enough to 
threaten human health. Under the Clean Water Act, the Environmental 
Protection Agency (EPA) is responsible for publishing water quality 
criteria that establish thresholds at which contamination--including 
waterborne pathogens--may threaten human health.
    Our testimony is based on GAO's recently issued report\1\ on BEACH 
Act implementation in the eight Great Lakes States and will cover three 
issues (1) the extent to which EPA has implemented the provisions of 
the Act, (2) concerns about EPA's formula for allocating BEACH Act 
grants, and (3) States' experiences in developing and implementing 
beach monitoring and notification programs using BEACH Act grants. 
Although, our testimony and recent report addressed the Great Lakes 
States, published EPA data and information presented at EPA sponsored 
BEACH Act conferences suggest that the findings are applicable 
nationwide. In summary, we found the following:
---------------------------------------------------------------------------
    \1\ Great Lakes: EPA and States Have Made Progress in Implementing 
the BEACH Act, but Additional Actions Could Improve Public Health 
Protection, GAO-07-591 (Washington, DC: May 1, 2007).
---------------------------------------------------------------------------
    <bullet> EPA has implemented seven of the BEACH Act's nine 
requirements and provisions, but has missed statutory deadlines for two 
critical requirements. Among other things, EPA promulgated water 
quality standards for the 21 States and territories that had not 
adopted EPA's water quality criteria and developed a national list of 
beaches. However, EPA has not (1) completed the pathogen and human 
health studies that were required by 2003 or (2) published new or 
revised water quality criteria for pathogens or pathogen indicators 
that were required by 2005. EPA told us that the required studies are 
ongoing, but may take an additional 4 to 5 years to complete, and that 
the development of new pathogen indicators would follow completion of 
the studies. We recommended that EPA establish a definitive time line 
for completing the studies required by the BEACH Act and for publishing 
new or revised water quality criteria for pathogens and pathogen 
indicators. EPA concurred with this recommendation.
    <bullet> Although EPA has distributed approximately $51 million in 
BEACH Act grants between 2001 and 2006 to the 35 eligible States and 
territories, EPA's formula for distributing BEACH Act grant funds does 
not reflect the States' varied monitoring needs. EPA's formula is based 
on three factors--length of beach season; beach miles, as measured by 
length of shoreline; and beach use, as measured by coastal population. 
If the program had received its full funding of $30 million annually 
that EPA used to develop the formula, each of the formula factors would 
have had a roughly equal impact on the grant allocations made to 
States. However, the program has received only about $10 million 
annually. Consequently, the beach season factor which EPA uses as a 
baseline for calculating States' grants has had a greater influence 
(about 82 percent) on the total BEACH Act grants each State received, 
while beach miles and beach use, which vary widely among the States and 
can impact the public health risk, have had a significantly smaller 
impact (about 9 percent each). As a result, States that have greater 
beach monitoring needs because of their longer coastlines and larger 
coastal populations, receive almost the same amount of funding as those 
States with smaller coastlines and coastal populations. We recommended 
that EPA reevaluate the funding formula it uses to distribute BEACH Act 
grants. While EPA concurred in the need to reevaluate the formula, it 
stated that some States were reluctant to make any significant changes 
to the formula.
    <bullet> States' use of BEACH Act grant funds to develop and 
implement beach monitoring and public notification programs has 
generally increased the extent of beach monitoring. However, States 
vary considerably in the frequency with which they monitor beaches, the 
monitoring methods used, and the means by which they notify the public 
of associated health risks. These differences are due, in part, to the 
current BEACH Act funding levels, which some State officials said are 
inadequate for sufficient monitoring. Moreover, while increased 
frequency of monitoring has helped States and localities identify the 
scope of contamination, in most cases, the underlying causes of the 
contamination remain unknown and unaddressed. Local officials from 
within the Great Lakes States told us that they generally do not have 
the funds to investigate and identify sources of contamination or to 
take actions to mitigate the problem, and EPA has concluded that States 
cannot use BEACH grants for this purpose. To assist States and 
localities nationwide in identifying and addressing sources of beach 
contamination, we recommended that the Congress consider allowing 
States some flexibility to use their BEACH Act grants to undertake 
limited research to identify specific sources of contamination at 
monitored beaches and take certain actions to mitigate these problems. 
In addition, we recommended that EPA provide States and localities with 
specific guidance on monitoring frequency and public notification.
                               background
    Under the Clean Water Act, EPA is responsible for publishing water 
quality criteria that establish thresholds at which contamination--
including waterborne pathogens--may threaten human health. States are 
required to develop standards, or legal limits, for these pathogens by 
either adopting EPA's recommended water quality criteria or other 
criteria that EPA determines are equally protective of human health. 
The States then use these pathogen standards to assess water quality at 
their recreational beaches. The BEACH Act amended the Clean Water Act 
to require the 35 eligible States and territories to update their 
recreational water quality standards using EPA's 1986 criteria for 
pathogen indicators. In addition, the BEACH Act required EPA to (1) 
complete studies on pathogens in coastal recreational waters and how 
they affect human health, including developing rapid methods of 
detecting pathogens by October 2003, and (2) publish new or revised 
water quality criteria by October 2005, to be reviewed and revised as 
necessary every 5 years thereafter.
    The BEACH Act also authorized EPA to award grants to States, 
localities, and tribes to develop comprehensive beach monitoring and 
public notification programs for their recreational beaches. To be 
eligible for BEACH Act grants, States are required to (1) identify 
their recreational beaches, (2) prioritize their recreational beaches 
for monitoring based on their use by the public and the risk to human 
health, and (3) establish a public notification program. EPA grant 
criteria give States some flexibility on the frequency of monitoring, 
methods of monitoring, and processes for notifying the public when 
pathogen indicators exceed State standards, including whether to issue 
health advisories or close beaches. Although the BEACH Act authorized 
EPA to provide $30 million in grants annually for fiscal years 2001 
through 2005,\2\ since fiscal year 2001, congressional conference 
reports accompanying EPA's appropriations acts have directed about $10 
million annually for BEACH Act grants and EPA has followed this 
congressional direction when allocating funds to the program.
---------------------------------------------------------------------------
    \2\ Although the BEACH Act was orginally authorized through 2005, 
Congress continued to fund EPA's efforts under the act in 2006 and 
2007.
---------------------------------------------------------------------------
    epa has implemented some but not all of the beach act provisions
    EPA has made progress implementing the BEACH Act's provisions but 
has missed statutory deadlines for two critical requirements. Of the 
nine actions required by the BEACH Act, EPA has taken action on the 
following seven:
    Propose water quality standards and criteria.--The BEACH Act 
required each State with coastal recreation waters to incorporate EPA's 
published criteria for pathogens or pathogen indicators, or criteria 
EPA considers equally protective of human health, into their State 
water quality standards by April 10, 2004. The BEACH Act also required 
EPA to propose regulations setting forth Federal water quality 
standards for those States that did not meet the deadline. On November 
16, 2004, EPA published in the Federal Register a final rule 
promulgating its 1986 water quality standards for E. coli and 
enterococci for the 21 States and territories that had not adopted 
water quality criteria that were as protective of human health as EPA's 
approved water quality criteria. According to EPA, all 35 States with 
coastal recreational waters are now using EPA's 1986 criteria, compared 
with the 11 States that were using these criteria in 2000.
    Provide BEACH Act grants.--The BEACH Act authorized EPA to 
distribute annual grants to States, territories, tribes and, in certain 
situations, local governments to develop and implement beach monitoring 
and notification programs. Since 2001, EPA has awarded approximately 
$51 million in development and implementation grants for beach 
monitoring and notification programs to all 35 States. Alaska is the 
only eligible State that has not yet received a BEACH Act 
implementation grant because it is still in the process of developing a 
monitoring and public notification program consistent with EPA's grant 
performance criteria. EPA expects to distribute approximately $10 
million for the 2007 beach season subject to the availability of funds.
    Publish beach monitoring guidance and performance criteria for 
grants.--The BEACH Act required EPA to develop guidance and performance 
criteria for beach monitoring and assessment for States receiving BEACH 
Act grants by April 2002. After a year of consultations with coastal 
States and organizations, EPA responded to this requirement in 2002 by 
issuing its National Beach Guidance and Required Performance Criteria 
for Grants. To be eligible for BEACH Act grants, EPA requires 
recipients to develop (1) a list of beaches evaluated and ranked 
according to risk, (2) methods for monitoring water quality at their 
beaches, such as when and where to conduct sampling, and (3) plans for 
notifying the public of the risk from pathogen contamination at 
beaches, among other requirements.
    Develop a list of coastal recreational waters.--The BEACH Act 
required EPA to identify and maintain a publicly available list of 
coastal recreational waters adjacent to beaches or other publicly 
accessible areas, with information on whether or not each is subject to 
monitoring and public notification. In March 2004, EPA published its 
first comprehensive National List of Beaches based on information that 
the States had provided as a condition for receiving BEACH Act grants. 
The list identified 6,099 coastal recreational beaches, of which 3,472, 
or 57 percent, were being monitored. The BEACH Act also requires EPA to 
periodically update its initial list and publish revisions in the 
Federal Register. However, EPA has not yet published a revised list, in 
part because some States have not provided updated information.
    Develop a water pollution database.--The BEACH Act required EPA to 
establish, maintain, and make available to the public an electronic 
national water pollution database. In May 2005, EPA unveiled 
``eBeaches,'' a collection of data pulled from multiple databases on 
the location of beaches, water quality monitoring, and public 
notifications of beach closures and advisories. This information has 
been made available to the public through an online tool called BEACON 
(Beach Advisory and Closing Online Notification). EPA officials 
acknowledge that eBeaches has had some implementation problems, 
including periods of downtime when States were unable to submit their 
data, and States have had difficulty compiling the data and getting it 
into EPA's desired format. EPA is working to centralize its databases 
so that States can more easily submit information and expects the data 
reporting will become easier for States as they further develop their 
system.
    Provide technical assistance on floatable materials.--The BEACH Act 
required EPA to provide technical assistance to help States, tribes, 
and localities develop their own assessment and monitoring procedures 
for floatable debris in coastal recreational waters. EPA responded by 
publishing guidance titled Assessing and Monitoring Floatable Debris in 
August 2002. The guidance provided examples of monitoring and 
assessment programs that have addressed the impact of floatable debris 
and examples of mitigation activities to address floatable debris.
    Provide a report to Congress on status of BEACH Act 
implementation.--The BEACH Act required EPA to report to Congress 4 
years after enactment of the act and every 4 years thereafter on the 
status of implementation. EPA completed its first report for Congress, 
Implementing the BEACH Act of 2000: Report to Congress in October 2006, 
which was 2 years after the October 2004 deadline. EPA officials noted 
that they missed the deadline because they needed additional time to 
include updates on current research and States' BEACH Act 
implementation activities and to complete both internal and external 
reviews.
    EPA has not yet completed the following two BEACH Act requirements:
    Conduct epidemiological studies.--The BEACH Act required EPA to 
publish new epidemiological studies concerning pathogens and the 
protection of human health for marine and freshwater by April 10, 2002, 
and to complete the studies by October 10, 2003. The studies were to: 
(1) assess potential human health risks resulting from exposure to 
pathogens in coastal waters; (2) identify appropriate and effective 
pathogen indicator(s) to improve the timely detection of pathogens in 
coastal waters; (3) identify appropriate, accurate, expeditious, and 
cost-effective methods for detecting the presence of pathogens; and (4) 
provide guidance for State application of the criteria. EPA initiated 
its multiyear National Epidemiological and Environmental Assessment of 
Recreational Water Study in 2001 in collaboration with the Centers for 
Disease Control and Prevention. The first component of this study was 
to develop faster pathogen indicator testing procedures. The second 
component was to further clarify the health risk of swimming in 
contaminated water, as measured by these faster pathogen indicator 
testing procedures. While EPA completed these studies for freshwater--
showing a promising relationship between a faster pathogen indicator 
and possible adverse health effects from bacterial contamination--it 
has not completed the studies for marine water. EPA initiated marine 
studies in Biloxi, Mississippi, in the summer of 2005, 3 years past the 
statutory deadline for beginning this work, but the work was 
interrupted by Hurricane Katrina. EPA initiated two additional marine 
water studies in the summer of 2007.
    Publish new pathogen criteria.--The BEACH Act required EPA to use 
the results of its epidemiological studies to identify new pathogen 
indicators with associated criteria, as well as new pathogen testing 
measures by October 2005. However, since EPA has not completed the 
studies on which these criteria were to be based, this task has been 
delayed.
    In the absence of new criteria for pathogens and pathogen 
indicators, States continue to use EPA's 1986 criteria to monitor their 
beaches. An EPA official told us that EPA has not established a time 
line for completing these two remaining provisions of the BEACH Act but 
estimates it may take an additional 4-5 years. One EPA official told us 
that the initial timeframes in the act may not have been realistic. 
EPA's failure to complete studies on the health effects of pathogens 
for marine waters and failure to publish revised water quality criteria 
for pathogens and pathogen indicators prompted the Natural Resources 
Defense Council to file suit against EPA on August 2, 2006, for failing 
to comply with the statutory obligations of the BEACH Act.
    To ensure that EPA complies with the requirements laid out in the 
BEACH Act, we recommended that it establish a definitive time line for 
completing the studies on pathogens and their effects on human health, 
and for publishing new or revised water quality criteria for pathogens 
and pathogen indicators.
     epa's beach grant formula does not adequately reflect states' 
                            monitoring needs
    While EPA distributed approximately $51 million in BEACH Act grants 
between 2001 and 2006 to the 35 eligible States and territories, its 
grant distribution formula does not adequately account for States' 
widely varied beach monitoring needs. When Congress passed the BEACH 
Act in 2000, it authorized $30 million in grants annually, but the act 
did not specify how EPA should distribute grants to eligible States. 
EPA determined that initially $2 million would be distributed equally 
to all eligible States to cover the base cost of developing water 
quality monitoring and notification programs. EPA then developed a 
distribution formula for future annual grants that reflected the BEACH 
Act's emphasis on beach use and risk to human health. EPA's funding 
formula includes the following three factors:
    <bullet> Length of beach season.--EPA selected beach season length 
as a factor because States with longer beach seasons would require more 
monitoring.
    <bullet> Beach use.--EPA selected beach use as a factor because 
more heavily used beaches would expose a larger number of people to 
pathogens, increasing the public health risk and thus requiring more 
monitoring. EPA used coastal population as a proxy for beach use 
because information on the number of beach visitors was not 
consistently available across all the States.
    <bullet> Beach miles.--EPA selected beach miles because States with 
longer shorelines would require more monitoring. EPA used shoreline 
miles, which may include industrial and other nonpublicly accessible 
areas, as a proxy for beach miles because verifiable data for beach 
miles was not available.
    Once EPA determined which funding formula factors to use, EPA 
officials weighted the factors. EPA intended that the beach season 
factor would provide the base funding and would be augmented by the 
beach use and beach mile factors. EPA established a series of fixed 
amounts that correspond to States' varying lengths of beach seasons to 
cover the general expenses associated with a beach monitoring program. 
For example, EPA estimated that a beach season of 3 or fewer months 
would require approximately two full-time employees costing $150,000, 
while States with beach seasons greater than 6 months would require 
$300,000. Once the allotments for beach season length were distributed, 
EPA determined that 50 percent of the remaining funds would be 
distributed according to States' beach use, and the other 50 percent 
would be distributed according to States' beach miles, as shown in 
table 1.


             Table 1.--BEACH Act Grant Distribution Formula
------------------------------------------------------------------------
              Formula factor                       Amount of grant
------------------------------------------------------------------------
Beach season length.......................  Less than 3 months: $150,000
                                            3-4 months: $200,000
                                            5-6 months: $250,000
                                            Greater than 6 months:
                                             $300,000

Beach use.................................  50 percent of funds
                                             remaining after allotment
                                             of beach season length
                                             funding.

Beach miles...............................  50 percent of funds
                                             remaining after allotment
                                             of beach season length
                                             funding.
------------------------------------------------------------------------
Source: EPA
aStates with less than a 3-month beach season only receive the $150,000
  in beach season length funding.

    EPA officials told us that, using the distribution formula above 
and assuming a $30 million authorization, the factors were to have 
received relatively equal weight in calculating States' grants and 
would have resulted in the following allocation: beach season--27 
percent (about $8 million); beach use--37 percent (about $11 million); 
and beach miles--37 percent (about $11 million). However, because 
funding levels for BEACH Act grants have been about $10 million each 
year, once the approximately $8 million, of the total available for 
grants, was allotted for beach season length, this left only $2 
million, instead of nearly $22 million, to be distributed equally 
between the beach use and beach miles factors. This resulted in the 
following allocation: beach season--82 percent (about $8 million); 
beach use--9 percent (about $1 million); and beach miles--9 percent 
(about $1 million).
    Because beach use and beach miles vary widely among the States, but 
account for a much smaller portion of the distribution formula, BEACH 
Act grant amounts may vary little between States that have 
significantly different shorelines or coastal populations. For example, 
across the Great Lakes, there is significant variation in coastal 
populations and in miles of shoreline, but current BEACH Act grant 
allocations are relatively flat. As a result, Indiana, which has 45 
miles of shoreline and a coastal population of 741,468, received about 
$205,800 in 2006, while Michigan, which has 3,224 miles of shoreline 
and a coastal population of 4,842,023, received about $278,450 in 2006. 
Similarly, the current formula gives localities that have a longer 
beach season and significantly smaller coastal populations an advantage 
over localities that have a shorter beach season but significantly 
greater population. For example, Guam and American Samoa with 12-month 
beach seasons and coastal populations of less than 200,000 each receive 
larger grants than Maryland and Virginia, with 4-month beach seasons 
and coastal populations of 3.6 and 4.4 million, respectively.
    If EPA reweighted the factors so that they were still roughly equal 
given the $10 million allocation, we believe that BEACH Act grants to 
the States would better reflect their needs. Consequently, we 
recommended that if current funding levels remain the same, that the 
Agency should revise the formula for distributing BEACH Act grants to 
better reflect the States' varied monitoring needs by reevaluating the 
formula factors to determine if the weight of the beach season factor 
should be reduced and if the weight of the other factors, such as beach 
use and beach miles should be increased.
      experiences of the great lakes and other eligible states in 
                     implementing beach act grants
    States' use of BEACH Act grants to develop and implement beach 
monitoring and public notification programs has increased the number of 
beaches being monitored and the frequency of monitoring. However, 
States vary considerably in the frequency in which they monitor 
beaches, the monitoring methods used, and the means by which they 
notify the public of health risks. Specifically, 34 of the 35 eligible 
States have used BEACH Act grants to develop beach monitoring and 
public notification programs; and the remaining State, Alaska, is in 
the process of setting up its program. However, these programs have 
been implemented somewhat inconsistently by the States which could lead 
to inconsistent levels of public health protection at beaches in the 
United States. In addition, while the Great Lakes and other eligible 
States have been able to increase their understanding of the scope of 
contamination as a result of BEACH Act grants, the underlying causes of 
this contamination usually remain unresolved, primarily due to a lack 
of funding. For example, EPA reports that nationwide when beaches are 
found to have high levels of contamination, the most frequent source of 
contamination listed as the cause is ``unknown''.
    BEACH Act officials from six of the eight Great Lakes States that 
we reviewed--Illinois, Michigan, Minnesota, New York, Ohio, and 
Wisconsin--reported that the number of beaches being monitored in their 
State has increased since the passage of the BEACH Act in 2000. For 
example, in Minnesota, State officials reported that only one beach was 
being monitored prior to the BEACH Act, and there are now 39 beaches 
being monitored in three counties. In addition, EPA data show that, in 
1999, the number of beaches identified in the Great Lakes was about 
330, with about 250 being monitored. In 2005, the most recent year for 
which data are available, the Great Lakes States identified almost 900 
beaches of which about 550 were being monitored.
    In addition to an increase in the number of beaches being 
monitored, the frequency of monitoring at many of the beaches in the 
Great Lakes has increased. We estimated that 45 percent of Great Lakes 
beaches increased the frequency of their monitoring since the passage 
of the BEACH Act. For example, Indiana officials told us that prior to 
the BEACH Act, monitoring was done a few times per week at their 
beaches but now monitoring is done 5-7 days per week. Similarly, local 
officials in one Ohio county reported that they used to test some 
beaches along Lake Erie twice a month prior to the BEACH Act but now 
they test these beaches once a week. States outside of the Great Lakes 
region have reported similar benefits of receiving BEACH Act grants. 
For example, State officials from Connecticut, Florida, and Washington 
reported increases in the number of beaches they are now able to 
monitor or the frequency of the monitoring they are now able to 
conduct.
    Because of the information available from BEACH Act monitoring 
activities, State and local beach officials are now better able to 
determine which of their beaches are more likely to be contaminated, 
which are relatively clean, and which may require additional monitoring 
resources to help them better understand the levels of contamination 
that may be present. For example, State BEACH Act officials reported 
that they now know which beaches are regularly contaminated or are 
being regularly tested for elevated levels of contamination. We 
determined that officials at 54 percent of Great Lakes beaches we 
surveyed believe that their ability to make advisory and closure 
decisions has increased or greatly increased since they initiated BEACH 
Act water quality monitoring programs.
    However, because EPA's grant criteria and the BEACH Act give States 
and localities some flexibility in implementing their programs we also 
identified significant variability among the Great Lakes States beach 
monitoring and notification programs. We believe that this variability 
is most likely also occurring in other States as well because of the 
lack of specificity in EPA's guidance. Specifically, we identified the 
following differences in how the Great Lake States have implemented 
their programs.
    Frequency of monitoring.--Some Great Lakes States are monitoring 
their high-priority beaches almost daily, while other States monitor 
their high-priority beaches as little as one to two times per week. The 
variation in monitoring frequency in the Great Lakes States is due in 
part to the availability of funding. For example, State officials in 
Michigan and Wisconsin reported insufficient funding for monitoring.
    Methods of sampling.--Most of the Great Lakes States and localities 
use similar sampling methods to monitor water quality at local beaches. 
For example, officials at 79 percent of the beaches we surveyed 
reported that they collected water samples during the morning, and 78 
percent reported that they always collected water samples from the same 
location. Collecting data at the same time of day and from the same 
site ensures more consistent water quality data. However, we found 
significant variations in the depth at which local officials in the 
Great Lakes States were taking water samples. According to EPA, depth 
is a key determinant of microbial indicator levels. EPA's guidance 
recommends that beach officials sample at the same depth--knee depth, 
or approximately 3-feet deep--for all beaches to ensure consistency and 
comparability among samples. Great Lakes States varied considerably in 
the depths at which they sampled water, with some sampling occurring at 
1-6 inches and other sampling at 37-48 inches.
    Public notification.--Local officials in the Great Lakes differ in 
the information they use to decide whether to issue health advisories 
or close beaches when water contamination exceeds EPA criteria and in 
how to notify the public of their decision. These differences reflect 
States' varied standards for triggering an advisory, closure, or both. 
Also, we found that States' and localities' means of notifying the 
public of health advisories or beach closures vary across the Great 
Lakes. Some States post water quality monitoring results on signs at 
beaches; some provide results on the Internet or on telephone hotlines; 
and some distribute the information to local media.
    To address this variability in how the States are implementing 
their BEACH Act grant funded monitoring and notification programs, we 
recommended that EPA provide States and localities with specific 
guidance on monitoring frequency and methods and public notification.
    Further, even though BEACH Act funds have increased the level of 
monitoring being undertaken by the States, the specific sources of 
contamination at most beaches are not known. For example, we determined 
that local officials at 67 percent of Great Lakes' beaches did not know 
the sources of bacterial contamination causing water quality standards 
to be exceeded during the 2006 beach season and EPA officials confirmed 
that the primary source of contamination at beaches nationwide is 
reported by State officials as ``unknown.'' For example, because State 
and local officials in the Great Lakes States do not have enough 
information on the specific sources of contamination and generally lack 
funds for remediation, most of the sources of contamination at beaches 
have not been addressed. Local officials from these States indicated 
that they had taken actions to address the sources of contamination at 
an estimated 14 percent of the monitored beaches.
    EPA has concluded that BEACH Act grant funds generally may be used 
only for monitoring and notification purposes. While none of the eight 
Great Lakes State officials suggested that the BEACH Act was intended 
to help remediate the sources of contamination, several State officials 
believe that it may be more beneficial to use BEACH Act grants to 
identify and remediate sources of contamination rather than just 
continue to monitor water quality at beaches and notify the public when 
contamination occurs. Local officials also reported a need for funding 
to identify and address sources of contamination. Furthermore, at EPA's 
National Beaches Conference in October 2006, a panel of Federal and 
academic researches recommended that EPA provide the States with more 
freedom on how they spend their BEACH Act funding.
    To address this issue, we recommended that as the Congress 
considers reauthorization of the BEACH Act, that it should consider 
providing EPA some flexibility in awarding BEACH Act grants to allow 
States to undertake limited research to identify specific sources of 
contamination at monitored beaches and certain actions to mitigate 
these problems, as specified by EPA.
    In conclusion, Mr. Chairman, EPA has made progress in implementing 
many of the BEACH Act's requirements but it may still be several years 
before EPA completes the pathogen studies and develops the new water 
quality criteria required by the act. Until these actions are 
completed, States will have to continue to use existing outdated 
methods. In addition, the formula EPA developed to distribute BEACH Act 
grants to the States was based on the assumption that the program would 
receive its fully authorized allocation of $30 million. Because the 
program has not received full funding and EPA has not adjusted the 
formula to reflect reduced funding levels, the current distribution of 
grants fails to adequately take into account the varied monitoring 
needs of the States. Finally, as evidenced by the experience of the 
Great Lakes States, the BEACH Act has helped States increase their 
level of monitoring and their knowledge about the scope of 
contamination at area beaches. However, the variability in how the 
States are conducting their monitoring, how they are notifying the 
public, and their lack of funding to address the source of 
contamination continues to raise concerns about the adequacy of 
protection that is being provided to beachgoers. This concludes our 
prepared statement, we would be happy to respond to any questions you 
may have.
[GRAPHIC] [TIFF OMITTED] 61972.001

  Response by Anu Mittal to an Additional Question from Senator Inhofe
    Question. In your report, you mention that the current pathogen 
indicators, including E. Coli may not be good indicators in part 
because they occur naturally in many environments. Further, the report 
States, as did our colleague, Congressman Bilbray, that pathogens from 
humans pose a greater risk than from animals.
    GAO concludes that EPA should establish a definitive time line for 
publishing new or revised water quality criteria for pathogens and 
pathogen indicators. Given some of the uncertainties identified in your 
report and by others, how important is that EPA develop a standard that 
is scientifically sound and addresses these uncertainties?
    Response. GAO recommended that EPA develop a definitive time line 
for publishing new or revised water quality criteria because the Agency 
has missed the statutory deadlines established by the BEACH Act of 
2000. The act required EPA to complete new epidemiological studies 
concerning pathogens and the protection of human health for marine and 
freshwater by 2003 and use the results of these studies to publish new 
or revised water quality standards by 2005. EPA has not met these 
statutory requirements and could not provide us with a firm time line 
for completing these actions, other than stating that it would take at 
least 4 to 5 more years.
    We also reported that the current pathogen indicators are over 20 
years old and were based on research conducted prior to 1986. Since 
that time, significant advancements in science have occurred and there 
is a better understanding of pathogens in general as well as those that 
pose a particular risk to humans. In light of these scientific 
advances, we believe it is appropriate for EPA to review and update its 
water quality standards, as necessary. To do so, EPA needs to complete 
the scientific studies that will help it either support the development 
of new standards and test methods or confirm the continued viability of 
the existing standards and test methods. In this regard, in response to 
the BEACH Act, EPA has completed some studies in freshwater and is 
currently conducting other studies in marine water that will provide 
valuable information on how the Agency should proceed with the 
development of new or revised water quality criteria and test methods 
for monitoring of coastal beaches. It is therefore critical for EPA to 
complete these studies so that it can make sound decisions regarding 
water quality criteria that are based on the most current and best 
available science.

    Senator Lautenberg. Thank you very much, Ms. Mittal. We 
appreciate the fact that you have highlighted some of these 
shortcomings, even as we see that there has been some progress.
    Mr. Grumbles, what do you say about the shortages of 
activity by way of using the funds available? The grants have 
been, Ms. Mittal suggests there are only $10 million worth of 
grants when $30 million was available. Why does something like 
that occur?
    Mr. Grumbles. Mr. Chairman, I would say that we always 
welcome the observations from GAO. I think we predicted some of 
the questions in advance and have been working over the last 
year with the States on the allocation formula for the funding 
to make sure that States understand and are comfortable with us 
finding a mechanism to get the most bang for our buck, the 
Federal taxpayers' dollars.
    I would say, Mr. Chairman, that one of the key challenges 
for us, and opportunities, is to continue to make progress by 
getting a collection of the world's experts, scientific 
experts, to identify what are the issues and barriers and to 
really focus in on that. That is why I am so proud that the 
Agency held this session in March, with 42 of the world's 
experts on beach pathogen and beach monitoring issues, to help 
us so that we can provide an updated science plan by the end of 
the summer that will help us continue to make progress and 
accelerate the delivery of the key tools under the BEACH Act.
    In terms of the funding, it is very important for us in 
partnership with the States to make sure, make clear that as 
this BEACH Act is implemented, which focuses on monitoring and 
public notification, that the States can then use tools such as 
the Clean Water Act moneys under the SRF and other programs.
    Senator Lautenberg. Mr. Grumbles, I hear your pride in the 
delivery of the report. But the question is, where has EPA been 
when the mandates as they existed propose using that money, 
propose being up to date with their reporting requirements, 
that reports that were due to be delivered in 2003 and 2005 are 
not yet here? And now the projection, as Ms. Mittal noted, are 
off to some significant time ahead.
    We have lost ground in areas that we thought, frankly, that 
the legislation that was passed in the year 2000 would have 
been taken care of.
    Mr. Grumbles. As a staffer, I was here and I saw your 
leadership and that of others in passing the statute and 
recognized as a staffer at the time, as did EPA, that some of 
those deadlines and schedules were ambitious ones. I would say 
that what we have done is we have made good use, as an agency, 
after 2000, in conducting several important studies, national 
studies, to get us to the point where we can issue those 
additional criteria, those 304(a) criteria. That is important 
to us as well.
    I am not happy that we are not able to meet a congressional 
deadline. We will be laying out a specific schedule, and it 
will be based in part on the new information. The science, Mr. 
Chairman, truly has been evolving. But that is not an excuse.
    Senator Lautenberg. Well, it is, Mr. Grumbles, the fact 
that you may take some satisfaction out of things that were 
done. Our mission here as we approach new legislation is to see 
why those things were not done, not simply for the purpose of 
punishment, but to get on with the job. It has proved to be an 
important element, just judging by the number of States that 
have signed on. Also the fact that in most recent time that 
there have been a lot more discoveries of contaminated beaches, 
because we do have the mechanism to identify them.
    For instance, we are going to a new funding level. It is a 
bit incredulous that as we approach a new funding level to find 
out that the old funding level wasn't used as it was available. 
Frankly, I don't think there are any excuses, whether there is 
lack of specific knowledge, et cetera, to get the States 
engaged in this process. If there are insufficient funds or 
insufficient encouragement, things are not going to be done.
    Now, I want to go on to another part of the subject. States 
not currently permitted to use BEACH Act grants to track the 
sources of BEACH Act contamination. Ms. Mittal suggests that 
this would be a good source for helping trace the source of the 
pollutants. How do you see the States' ability to use these 
grants? Is it a good idea?
    Mr. Grumbles. We don't have an official position yet on the 
legislation. But to answer your question, Mr. Chairman, I think 
it is a good idea to be focusing increasing attention on 
pollution prevention and source tracking. That is why we took 
an initiative 2 years ago to develop a sanitary survey form for 
Great Lakes beaches and for providing assistance to help on the 
sanitary surveys to do detective work on the sources.
    I would also say that I think there may be concern about 
expanding the scope and mission of the BEACH program to a full 
course remediation program, that we need to keep our focus on 
the----
    Senator Lautenberg. Well, we are not going that far. We are 
saying, let's find out where the problems emanate. Then we can 
talk further here about what do we do to provide the funding on 
the inspiration of the knowledge to get these things done. 
Please don't take a lot of satisfaction from form design or 
reports. I am very practical, I come from the business world. I 
know we have a lot to do, you have a lot to do, as does 
everyone else.
    Mr. Grumbles. It is providing, laying the foundation for 
scientifically defensible criteria. That is what it really 
translates into. The sanitary surveys are an important part of 
that, Mr. Chairman.
    Senator Lautenberg. But the conclusion I come to is, as we 
look at this, we know things have been weak, that there hasn't 
been the vibrant action from the EPA that we would like to see. 
Here we say GAO recommends that EPA issue guidance to ensure 
that States' monitoring and notification programs are meeting 
standards actually protecting the public. Well, I will ask you, 
does EPA intend to follow GAO's advice in issuing that kind of 
guidance?
    Mr. Grumbles. We do plan to issue guidance, improved, 
revised guidance. The 2002 guidance had nine specific criteria, 
and we think it is very important to update that guidance.
    Senator Lautenberg. When might we expect that?
    Mr. Grumbles. In 18 months.
    Senator Lautenberg. Eighteen months. Do you think that what 
is being requested here, these guidance rules, maybe could have 
been done in a lot shorter time?
    Mr. Grumbles. As you know, because you helped pass the 
BEACH Act in 2000, a key to success has been to have the States 
support and on board that the science is defensible. That is 
one reason why we didn't see progress between 2000 and 2004. 
Many of the States were very uncomfortable with moving to 
updated criteria, because they felt the scientific foundation 
wasn't there.
    So for us, promulgating the 1986 criteria for those States 
that hadn't done so before November 2004 is a significant step. 
I share your view, Mr. Chairman, and it is in the statute as 
well, that we need to get on with updating and revising those 
criteria even further. There are some significant scientific 
and policy questions to making sure that the States and others 
will feel those new criteria, once we do finalize them, are the 
best and defensible. We are committed to getting that done as 
soon as we can, and we understand the frustration on not 
getting it done.
    Senator Lautenberg. It is going to be different than the 
record reflects if we see some reasonable amount of haste put 
into this, as well as fairness.
    Ms. Mittal, how do you think the rapid testing methods 
might help benefit implementation of the BEACH Act in the Great 
Lakes as well as other coastal States?
    Ms. Mittal. The need for rapid tests was something that was 
identified by just about everybody that we talk to. Currently, 
the current testing method, as was mentioned by the earlier 
panel, they take between 36 to 48 hours. That is a typical time 
lag. So beach managers are making decisions about whether to 
issue a beach advisory or to issue a beach closure based on 
results that are pretty old, based on samples that are really 
old, a couple of days old. So definitely rapid test methods are 
something that is needed.
    Senator Lautenberg. GAO recommends that EPA gives States 
the specific guidance on beach monitoring programs. Does GAO 
have any ideas on what those guidelines should be and have you 
discussed these recommendations with EPA?
    Ms. Mittal. We have discussed our recommendations with EPA 
and EPA concurred that these recommendations needed to be 
addressed and that they would be addressing them. The area of 
guidance that we are looking for relates to four specific 
issues.
    We found that the frequency of monitoring that was 
occurring varied among States. Some States were only monitoring 
their high priority beaches once a week, even though EPA 
recommends that high priority beaches should be monitored 
daily.
    We found that the method by which States were taking 
samples varied. While they collect samples generally in the 
same location and at the same time of day, the depth at which 
they were taking the samples varied considerably. Some people 
were taking samples at 1 to 2 inches depth and others were 
taking samples at 37 to 48 inches. EPA recommends knee-high, or 
36 inch as the depth for sample taking. So those kinds of 
differences or variability in sample-taking can affect the 
quality of the data that we are collecting.
    The third area that we identified, inconsistencies in how 
beach managers were using sample results to decide whether they 
were going to issue beach advisories for beach closures. Some 
States only issue health advisories, some States only do beach 
closures and some do a combination of both. So again, that is 
an area where we think that EPA can help the States be very 
consistent in how they apply the sampling results.
    The last area relates to the signage. It is generally 
agreed that signs on the beach are the most effective manner of 
notifying the public that there is a problem with pollution and 
contamination. But when we looked at various signs that were 
being used by the States, we found that the signs didn't have 
all of the information that EPA recommends should be on a sign. 
For example, what is the date that the beach closure is 
effective on? Some signs are missing that information. Other 
signs are missing information as to when the sample was taken.
    These are pretty relatively easy things that EPA could 
provide guidance on pretty quickly.
    Senator Lautenberg. Mr. Grumbles, I hope that you listened 
carefully to what GAO has recommended.
    Mr. Grumbles. We think that is a good report and we concur 
with them on many of the items. We will work with you and your 
colleagues, too, to do what we can.
    Senator Lautenberg. I will thusly excuse you both from the 
table. Thank you, and that will give you time, Mr. Grumbles, to 
get on to correcting these conditions that we heard about 
today.
    Mr. Grumbles. Thank you, Mr. Chairman.
    Senator Lautenberg. Your full statements obviously will be 
in the record if your summary isn't everything you wanted to 
say.
    Now for our third panel, we welcome Cindy Zipf. Cindy Zipf 
is the executive director of Clean Ocean Action, worked for two 
decades to preserve the coastal water of New Jersey and New 
York. We welcome her and Mara Dias and Carlton Dufrechou. Mr. 
Dufrechou, when you come from Lake Pontchartrain, I am reminded 
of the signs in French that I used to see when I was a soldier 
in World War II, beautiful recall, I think, of tradition.
    Ms. Dias, you are welcome, obviously, as well.
    Cindy, we worked together on so many things affecting the 
ocean and I have always enjoyed our chance to get together and 
your persistence and tenacity in making sure that we do what we 
have to do to protect the people, the industry and the income 
as a later consequence. But we have to protect the people and 
we have to encourage them. Being of mature age, I can tell you 
that I have known the oceans for a long time. I watched my 
grandmother and my mother and her four sisters swim in the 
ocean and worry about the fact that, when I was a little kid, 
they were so far out. Never meant anything, they were content 
to be there and I was content to follow them. So it is nice to 
see you, Cindy, and I will ask you that you observe the 5-
minute rule, all of you, within reason. I will please ask you 
to commence.

STATEMENT OF CINDY ZIPF, EXECUTIVE DIRECTOR, CLEAN OCEAN ACTION

    Ms. Zipf. Thank you very much, Mr. Chairman. It is a joy 
and privilege to be here. New Jersey has had a lot of 
excitement when it comes to ocean pollution and challenges. 
Your leadership and your work has been tremendous. Our ocean at 
the Jersey Shore is happier and healthier, not just for people, 
but for all the critters that live there and depend on it as 
well. So we want to thank you for your leadership and your 
commitment to the ocean.
    New Jersey's delegation is a real sense of pride for us 
around the country, because it is such a gold standard for 
ocean protection legislation. Mr. Pallone was here earlier, who 
also is a chairman, and as we always like to say, we have our 
Franks for the Jersey Shore in Congress. It is really a 
pleasure to work with you all.
    My name is Cindy Zipf, I am the executive director of Clean 
Ocean Action. I am here with Dr. Jennifer Sampson, who is 
principal scientist for the organization. We work with over 150 
organizations, as you know, to improve and protect the water.
    A lot of what we have heard today, I think there is a lot 
of consensus, so I am hopefully going to skip through some of 
that consensus, including the fact that we are on the brink of 
the Independence Day weekend.
    But the BEACH Act, with all the citizens that come to the 
shore, is the way for citizens to know the answer to the 
question, am I swimming in a sewer. I think that is very 
important, and that gives citizens at least some confidence 
about the beach and that they are not going to wind up with an 
inconvenient or very uncomfortable ailment, as has been talked 
about.
    The significant progress, again, with the New Jersey 
leadership in the progress, has in part its roots the terrible 
legacy of 20 years ago, when we had the medical waste and the 
raw sewage and the floatables all washing up on our beach. Over 
a thousand beach closures occurred. While those thousand beach 
closures and the beach pollution was not a proud legacy, we 
were proud that at least in New Jersey, we had a testing 
program at the time that resulted in those beach closures. The 
leadership, again, in Congress, was to try to identify a way 
for there to be national standards. Because although New Jersey 
was closing its beaches, there were a lot of beaches around the 
country that were not.
    So in that way, it did set a national precedent, though it 
did take some time. It created uniform benchmarks that we are 
all relying on.
    But as has been talked about so much today, there are 
improvements that are needed. There are a lot of faults that 
time has examined through the GAO report. I think most 
importantly, that rapid test that we need to ensure that we 
move forward on more quick testing really has been thoughtful. 
I think that the opportunity is to speed up those tests.
    So with respect to where do we go from here, we are very 
heartened by the bill that has been introduced by yourself and 
Mr. Pallone and others. The Beach Protection Act, which really 
takes us to the next level, evolves the BEACH Act into a new 
and more protective Act. It is a welcoming and strong start. To 
that end, we would like to encourage the implementation of the 
same day answers to ``is it safe to swim'' by 2009. We think 
that is achievable.
    The fact is that over 70 percent of contaminated beaches 
are clean within 24 hours. Yet that current EPA system takes 24 
to 36 to 48 in order to close the beach. So clearly, with the 
resulting 2- to 3-day delay, beaches remain open when 
contamination is at its peak. Force of closure may be after the 
big crisis is gone.
    So clearly, with the advance of the technology, we can 
really address these problems. The current indicators of the 
presence of the pathogens in surface waters is based on 
extensive nationwide epidemiological study. The difference 
between the currently approved method and the new rapid test, 
such as the QPCR, are that the former requires the growth of 
bacteria in a culture, whereas the latter directly measures the 
genetic material. These new methods make it completely possible 
to within 2 hours have that test, rather than in 24 hours. So 
it is very important for public health.
    I think what is also important to emphasize here is that 
for public health safety and for good governance, it is vital 
that the adoption of these rapid tests require States to 
conduct the sampling in such a way that they make the decisions 
for beach closures on the same day. We don't want a State to 
take a 2-hour test one day and a 2-hour test the next day. We 
are not getting any quicker in the test results. So it is very 
important that the legislation, as it moves forward, require 
that same day decisionmaking as well as the same day testing.
    We are very happy that New Jersey is again stepping up to 
the challenge and participating in the EPA rapid test. I will 
try to move quickly now.
    The second issue that we want to emphasize is that 
notification speed of the results must occur without delay. We 
believe that words such as instant and immediate should be 
considered. Not all States have the kind of notifications that 
New Jersey has with the real-time, you can go on the computer 
and get that information. But there is a possibility that all 
States can have that real-time information. With radios, local 
emergency response teams, telephones, cell phones, we should be 
able to get the word out that the beach is closed within that 
same day. We don't need an additional 24 hours.
    Third, we are happy that the new BEACH Act, Beach 
Protection Act, would include a 50 percent reduction if States 
are not compliant with the new requirements. Again, I think 
everyone is talking about the funding source. We really do need 
to step up the funding. While we think that the increase that 
is under the Beach Protection Act is significant, the fact that 
there is such a larger amount of requirements, source 
reduction, more testing, additional programs, that we would 
like to see that number up to about $100 million annually, and 
not just authorized, but actually appropriated. I think part of 
the problem is that we have to make sure that we get full 
appropriation to these programs.
    Finally, we would like the Beach Protection Act to allow 
for the continued evolution of the program and allow for 
continued new initiatives to be implemented through academia 
and scientists and such. One area that we would particularly 
like to see is the immediate testing after rain events.
    So thank you very much for this opportunity.
    [The prepared statement of Ms. Zipf follows:]
    Statement of Cindy Zipf, Executive Director, Clean Ocean Action
                              introduction
    Thank you Mr. Chairman, for the opportunity to testify on the 
implementation and reauthorization issues concerning the Beaches 
Environmental Assessment and Coastal Health Act, better known as the 
BEACH Act (Public Law 106-284). It is indeed an honor to testify here 
today. Over the years your efforts to improve and protect our Nation's 
ocean and coasts have been bold, outstanding, and successful. Our ocean 
is cleaner and healthier thanks to your leadership, New Jersey's 
delegation, and the bi-partisan good work of Congress to safeguard our 
most valuable natural asset.
    My name is Cindy Zipf, Executive Director of Clean Ocean Action. I 
am here with Dr. Jennifer Samson, Principle Scientist for Clean Ocean 
Action. We represent a broad-based coalition of groups dedicated to 
improving the degraded water quality of the marine environment off the 
New Jersey/New York coast. We identify sources of pollution and mount 
attacks on each source by using research, public education, and citizen 
action to convince our public officials to enact and enforce measures 
that will cleanup and protect our ocean. \1\
---------------------------------------------------------------------------
    \1\ Visit http://www.cleanoceanaction.org for more information.
---------------------------------------------------------------------------
                  nemesis of public health and economy
    This hearing could not be more timely. As the Nation is poised to 
celebrate Independence Day, hundreds of millions of Americans will 
enjoy our beaches. Since 2000, citizens have relied on the benefits of 
the BEACH Act to help answer the question, ``Am I swimming in a 
sewer?'' and to help ensure that their fun at the shore is not followed 
by an inconvenient and uncomfortable ailment.
    This significant progress actually has its roots at the Jersey 
Shore. Twenty years ago, during the infamous summers of 1987-88, New 
Jersey beaches became a national scandal, suffering from over one 
thousand beach closures due to raw sewage, garbage, and medical waste 
wash-ups. While the impact of these events was devastating to the 
ecosystem they were disastrous to the economy. One estimate put losses 
between $820 million and $3 billion (in 1987 dollars).\2\ While this 
legacy of pollution in New Jersey is not a proud one, there is a sense 
of pride that NJ was the first State to require comprehensive 
monitoring of swimming beaches with mandatory closures when waters did 
not meet health standards. Clearly, New Jersey took public health 
protection seriously. Most other States chose not to conduct such a 
public health program or held weaker or different standards. The quest 
for a national program was launched, and this led to the BEACH Act of 
2000. For its time, it was a bold and essential public health 
protection program.
---------------------------------------------------------------------------
    \2\ Ofiara, Douglas D. and Bernard Brown, ``Marine Pollution Events 
of 1988 and Their Effect on Travel, Tourism, and Regional Activities in 
New Jersey,'' referenced as an ``Invited Paper presented at the 
Conference on Floatable Wastes in the Ocean: Social Economic and Public 
Health Implications. March 21-22, 1989 at SUNY-Stony Brook.''
---------------------------------------------------------------------------
    By establishing and implementing a national standard for 
recreational water quality, the BEACH Act provided a mandatory, uniform 
benchmark for the protection of public health. The hundreds of 
thousands of beach closures nationally over the years is a testament 
that NJ wasn't the only State with water quality problems.
    Most importantly, a closed beach is one of the most motivating 
incentives to identify and eliminate the source of the pollution. As a 
result, many spigots of pollution have been eliminated, improving the 
entire marine ecosystem. Though progressive at the time of passage, the 
BEACH Act is based on a testing protocol that takes 24 hours for 
results. Thus, depending on a State's program, it can take from two to 
3 days to close a beach. Recognizing this concern at the time, the 
BEACH Act required USEPA to identify and adopt a faster test making the 
program more protective. However the implementation of that mandate is 
slothful.
    Since the BEACH Act answers the question, ``Should I have been 
swimming 3 days ago?'' and as there are additional concerns to be 
addressed, the BEACH Act is overdue for change.
    The next evolution of beach water quality protection must do the 
following:
     Provide same-day answers to the question, ``Is it safe to swim 
today?'' by 2009.
     Increase notification speed of test results and information about 
closures as well as provide easy access to all data to the public.
     Assure States are accountable for implementing, at minimum, the 
Federal program.
     Increase funding for States to implement the rapid test and 
reporting systems.
     Require and fund tracking, identification, and source reduction 
or elimination.
     Allow for continued evolution of the water quality monitoring 
program with collaboration and participation of academia, scientists, 
and the public. Research should include improved indicators for 
protection of public health and the environment. This research should 
lead to programs to assist in the track-down and elimination of 
pollution sources. To assure public health, monitoring programs should 
also be expanded in the future to require testing immediately after 
rain events.
    Mr. Lautenberg in the Senate and Mr. Pallone in the House of 
Representatives are currently introducing the Beach Protection Act of 
2007. This bill is a strong and welcome start toward meeting these 
goals and we submit the following rationale for these above 
recommendations.
               usepa same-day rapid test adoption by 2009
    In the interest of water quality and public health, the 
implementation of a rapid test for bacteria in recreational waters must 
be our first priority. The current USEPA approved methods take 24 hours 
to get results, and many States, including NJ, require two consecutive 
failing tests to close the beaches. Considering the fact that 70 
percent of contaminated beaches are clean 24 hours later\3\, the 
resulting delay allows beaches to remain open when contamination is at 
its peak and forces closures after the threat may have passed. This 
system fails to protect public health and causes unnecessary negative 
economic effects to beach communities. Now, thanks to tremendous 
advances in molecular biology, it is possible to determine the 
concentration of bacteria in marine and fresh water within 2 hours. 
These rapid methodologies must be swiftly adopted and utilized.
---------------------------------------------------------------------------
    \3\ Leecaster, M.K. and S.B. Weisburg, (2001) Effects of sampling 
frequency of shoreline microbiology assessments. Mar. Poll. Bull. 
42(11): 1150-1154.
---------------------------------------------------------------------------
    Despite their ongoing efforts USEPA, for whatever reason, has been 
unable to advance rapid methodologies at the pace necessary to 
adequately protect public health. Yet, academia and the private sector 
have been making great strides in the development, evaluation and 
accuracy of several different rapid methodologies. In fact, the 
Southern California Coastal Water Research Project recently released a 
report that found two different rapid tests, including the QPCR method 
currently being investigated by USEPA, that were more than 85 percent 
accurate with respect to the USEPA approved method\4\. This QRCR is 
within 8 percent of USEPA's current proved method. Ongoing efforts this 
year continue to improve the accuracy of these rapid methods, and these 
researchers expect to achieve equivalency with approved USEPA methods 
by next year. The USEPA is moving forward and will be partnering with 
the New Jersey Department of Environmental Protection (NJDEP), which 
has again stepped-up to its leadership role in beach monitoring by 
being one of two States participating in the field verification of this 
method this summer. USEPA must take advantage of these significant 
advances through collaboration with researchers outside the Agency.
---------------------------------------------------------------------------
    \4\ Griffith, J.F., et al. (2007) Beta testing of rapid methods for 
measuring beach water quality. Technical Report 506. ftp://
ftp.sccwrp.org/pub/download/PDFs/506--beta--testing.pdf.
---------------------------------------------------------------------------
    The use of Enterococci and Escherichia coli as indicators of the 
possible presence of pathogens in surface waters is based on extensive 
nationwide epidemiology studies. The difference between the currently 
approved methods and the new rapid test methods, such as QPCR, are that 
the former require growth of the bacteria in culture, while the later 
are able to directly measure the genetic material of these two species. 
These methods provide results within 2 hours, instead of 24 hours with 
the current method. For the public, the difference is same-day 
notification instead of a two or 3 day delay. To be clear, to protect 
health and for good governance it is vital that the adoption of the 
rapid test require States to conduct the sampling in such a way as to 
ensure that water quality decisions are made the same day. Essentially, 
it is the whole point of the new testing measures.
    Because the new rapid test methods continue to utilize the same 
indicator species (Enterococci and Escherichia coli) it is not 
necessary, and could even be considered irresponsible and dangerous, to 
delay approval of rapid tests until additional epidemiology studies are 
complete. In the interest of public health, QPCR, or an appropriate 
rapid test methodology, must be adopted by USEPA once they are shown to 
be statistically equivalent to currently approved methods. As stated 
above, this level of accuracy can be achieved by 2009. Thus, 
legislation should require same-day rapid test application and should 
include the 2009 deadline.
                     increase speed of notification
    Public notification and posting of degraded water quality must 
occur without delay. With the availability of rapid testing methods 
comes the ability for the public to truly know the answer to the 
question ``Is it safe to swim today?'' The Internet system, phones, 
instant messaging, radio, local emergency response teams, and beach 
personnel (where applicable) make such instant notification real and 
achievable. Current language in the BEACH Act allows up to 24 hours for 
the public to be informed. This allows far too much discretion, and the 
public may not be informed in a timely manner. Thus, legislation should 
require ``instant'' or ``immediate'' public notification.
                            increase funding
    A clean, healthy, and swimmable ocean is the lifeblood of the 
nation's economy. According to the 2004 Final Report of the U.S. 
Commission on Ocean Policy, An Ocean Blue Print for the 21st Century, 
the value of the ocean and coast are ``priceless assets.'' For example, 
in 2000, the ocean economy contributed more than $117 billion. The 
overall economic activity within the coastal watershed counties is even 
more staggering--contributing to a total of over $4.5 trillion of the 
nation's Gross Domestic Product (GNP), which is equal to half of the 
national GNP\5\.
---------------------------------------------------------------------------
    \5\ U.S. Commission on Ocean Policy. An Ocean Blueprint for the 
21st Century. Final Report. Washington, DC, 2004 ISBN#0-9759462-0-X.
---------------------------------------------------------------------------
    For such a magnificent return, we fail to adequately invest in 
protecting this extraordinary asset. In recent years, grants States' 
programs been paltry. For example, this year USEPA will issue a mere 
$9.9 million\6\ to 35 States to implement BEACH Act programs. The 
coastal economy is worth much greater investments.
---------------------------------------------------------------------------
    \6\ USEPA Fact Sheet; EPA-821-F-06-012; January 2007 ``EPA Makes 
Grants Available to States to Implement Water Quality Monitoring and 
Public Notification Programs at the Nation's Beaches.''
---------------------------------------------------------------------------
    To assist States, the bill would double the authorization amounts 
for State grants from $30 million to $60 million, which is an important 
improvement. However, given the expanded charges and their importance, 
additional funding is needed. While the authorization is warranted, it 
is most imperative that Congress and the Administration fully fund this 
appropriation in the budget each year. In recent years, funding has 
been paltry. For example although $30 million is authorized under the 
BEACH act, for most years Congress has only appropriated $10 
million\7\. Thus, we would urge that the Beach Protection Act provide 
an authorization and that future budgets appropriate $100 million 
annually.
---------------------------------------------------------------------------
    \7\ Coast Alliance Report, 2005; Funding Our Coastal Heritage, A 
Guide to Federal Investments in Our Coastal Resources.
---------------------------------------------------------------------------
              assure states and usepa are held accountable
    Laws and regulations are only as strong as their accountability and 
enforcement. By allowing USEPA the ability to cut funding by 50 
percent, the Beach Protection Act provides a highly motivating tool to 
keep States' programs in compliance. It is also important that citizens 
be able to keep States and USEPA accountable to the requirements. 
Establishing time lines for meeting or implementing objectives and 
reporting deadlines are effective tools. The Beach Protection Act 
should eliminate discretion where possible and establish time lines and 
deadlines.
             continued progress for the monitoring program
    There are many different research efforts currently underway to 
advance the science of recreational water quality, including improved 
techniques for source identification and track-down, exploration of new 
indicator species, and source specific epidemiology studies. As our 
knowledge and understanding of bacterial contamination improves, so 
must our approach to beach water quality monitoring. It is critical 
that the USEPA program is adaptable and can implement necessary changes 
to improve the protection of public health and the environment.
    Studies show that most beach closings occur from stormwater 
discharge following rain events. Indeed, Natural Resources Defense 
Council's Testing the Waters 2006 stated, ``Stormwater discharges from 
roads, buildings, industrial sites, constructionsites, and other 
impervious surfaces are the largest known cause of beach closures and 
advisories.''\8\ However, not all monitoring programs conduct sampling 
during rain events. For example, samples in NJ are taken on Monday, 
rain or shine, and not after rain events on the other 6 days of the 
week.
---------------------------------------------------------------------------
    \8\ Natural Resources Defense Council, Testing the Waters 2006: A 
Guide to Water Quality at Vacation Beaches.
---------------------------------------------------------------------------
    As funding and programs evolve, it is important to link monitoring 
activity to rain events. As mentioned earlier, 70 percent of 
contaminated beaches are clean 24 hours later. If a State is only 
sampling once a week and it rains in between, people unaware of the 
threat, may be exposed to harmfully contaminated water.
    We urge that the Beach Protection Act require the continued 
evolution of testing techniques as well as the development of a program 
to address testing following rain events.
    In closing Mr. Chairman, thank you for the opportunity to testify 
and we look forward to continuing our successful collaboration to 
improve and protect the health of the coast and ocean.

    Senator Lautenberg. Thank you. If there is anything else 
that you include in your written statement, please know that we 
will accept those comments as well.
    Mr. Dufrechou, it is nice to see you, and we welcome your 
testimony. I will be as liberal as I was with Ms. Zipf, but not 
a second more.
    [Laughter.]

   STATEMENT OF CARLTON DUFRECHOU, EXECUTIVE DIRECTOR, LAKE 
                 PONTCHARTRAIN BASIN FOUNDATION

    Mr. Dufrechou. Senator, thank you. I will try to be as 
succinct as possible.
    It is an honor to be here today and I appreciate the 
invitation, certainly the invitation from Senator Vitter, also.
    I would like to leave you with two thoughts. Monitoring, in 
our opinion, in our experience with the Pontchartrain Basin, is 
instrumental in the improvement of water quality. Source 
identification is critical. You have to have both. In our 
instance, in Lake Pontchartrain, when you think of New Orleans, 
most people think of the Mississippi River. But Lake 
Pontchartrain actually is an integral part of New Orleans, it 
always has been. In the 1940s, 1950s and 1960s, Lake 
Pontchartrain was a recreational haven for the metro area. As a 
kid, I learned to swim in Lake Pontchartrain.
    Unfortunately, in July 1962, the first ``no swimming'' 
signs came up on the south shore because of high levels of 
bacteria. They were red, they weren't yellow or orange. But I 
remember asking my dad what pollution meant and he tried to 
very patiently explain it to me as a 7-year old. But what it 
meant to me is I couldn't go swimming in the summer time, which 
was really disheartening.
    Unfortunately, over the next three decades, Pontchartrain's 
waters continued to degrade from an array of sources, urban 
runoff, agricultural activities, actually from some industries 
also. But in the late 1980s, a group of citizens, not my 
generation, Senator, but yours, people who had some sense, got 
together. They remembered Pontchartrain----
    Senator Lautenberg. Now you are trying to flatter me.
    [Laughter.]
    Mr. Dufrechou. No, sir, I am being sincere. They remembered 
Pontchartrain in its heyday when it was strong and healthy and 
robust. They actually lobbied our State legislature to create 
an entity, the entity I worked for, now the Lake Pontchartrain 
Basin Foundation, to focus on the restoration of not only the 
lake but the entire 10,000 square mile basin. We are basically 
al of southeast Louisiana. We have 20 percent of the State's 
land mass, we go from rolling hills in the Florida Parish to 
the highly urbanized area around New Orleans down to the coast, 
to the coastal wetlands and barrier islands in the Gulf of 
Mexico.
    We call Pontchartrain a lake, actually, it is like 
Chesapeake, it is an inland bay, because of the tidal passes to 
the east, to the Gulf of Mexico. It is an interesting area, 
with the rivers coming from the north, the fresh water from the 
rivers mixing with the salty waters of the sea. It is actually 
the largest contiguous estuarine area on the U.S. Gulf Coast.
    Because of these sources of pollution, though, it became 
literally, it was called the brown mess in the late 1970s and 
early 1980s. The State of Louisiana unfortunately discontinued 
sampling of Lake Pontchartrain because the water was so bad for 
so long in 1978, about the time I was in college. It was not a 
good day. Because of the citizens that got together, though, 
and the interest, the community started to look at what was 
going on and started to address the sources of pollution sewage 
bypass, as we started working with the ag industry.
    When the Pontchartrain Basin Foundation came together, we 
were the catalyst to try to get everyone around the table, 
whether it was the local folks, the State agencies, the Feds. 
By working together, we started focusing on Pontchartrain. Our 
monitoring program actually started in 1994 as a volunteer 
program. As we started to see the water quality of the Lake 
improved, as the sewage started to be cutoff, as urban runoff 
started to decrease, as we stopped the unlimited shell dredging 
in the Lake, the water clarity came back.
    As the water quality started to improve, actually by the 
late 1990s, it looked like we were borderline swimmable again. 
At that point, we started an intensive program, which actually 
mirrored EPA's criteria then for fecal coliform. It went 
further into E-coli and most recently into Enterococci also. We 
started sampling at the historic recreational beaches, the 10 
historic beaches surrounding the Lake. We were able to, within 
a short period, come up with a criteria, actually reporting 
criteria, which we are very pleased to announce today that 
since 2002, we have been reporting on a weekly basis in the 
Times Picayune, the largest regional newspaper and the four 
local TV stations in New Orleans as well as the radio stations, 
they all have weekend broadcasts, weather reports and beach 
reports now for Pontchartrain. It is also listed on our 
SaveOurLake.org Web site.
    We have gone further than that, though, and you are very 
right about trying to find the sources of pollution that you 
were mentioning before. With the monitoring program, we were 
able to actually bracket where pollution was recurring. With 
that, we started to, OK, here is a bad area, we are going to go 
into here and try to do more intensive monitoring. We started a 
source identification with the help of the EPA about 2 years 
ago for some of the north shore rivers.
    With that program, in the period so far, we have 
accomplished, I believe, 3,600 samples in 120 different spots. 
We don't just find the sources of pollution, once we find them, 
we try to provide technical assistance to get rid of it, 
whether it is a wastewater facility, a private business, a 
dairy, to get them back into compliance. We have provided 
technical assistance to over 500 wastewater treatment plants 
and over 100 dairies in that period.
    The program, Senator, it amounted to more quantitative 
water quality improvements from 10 stream segments to the 
Pontchartrain Basin. It works. I strongly urge you and your 
colleagues in the Senate, please, continue to support programs 
like this, like the BEACH Program. Pontchartrain is not 
perfect. We have a long way to go yet. But we urge you to 
please continue supporting programs like this.
    May I add one more thing? Thank you and all of your 
colleagues in the Senate from all of us in southeast Louisiana. 
It has been a marathon since Hurricane Katrina. We do a lot of 
coastal work, too, and we are so thankful for all of the help. 
There are people down there pulling themselves up by the 
bootstraps, Senator, but they couldn't do it without the help 
we have gotten.
    [The prepared statement of Mr. Dufrechou follows:]
  Statement Carlton Dufrechou, Executive Director, Lake Pontchartrain 
                            Basin Foundation
    In July of 1962, the first ``No Swimming'' signs were posted 
because of high levels of pollution along Lake Pontchartrain's New 
Orleans shoreline. For the next three decades, Pontchartrain waters 
continued to be further degraded by a multitude of pollution sources 
including poorly treated and untreated sewage, agricultural runoff, 
urban runoff, and several industrial operations. The water quality 
became so bad that the State of Louisiana discontinued sampling of the 
lake in the late 1970s. By the 1980s, Lake Pontchartrain was literally 
a brown mess. Then, in 1989, as a result of public outcry to restore 
Pontchartrain, the Louisiana Legislature created the Lake Pontchartrain 
Basin Foundation (LPBF). The LPBF's mission is to coordinate the 
restoration and preservation of the water quality and habitats of Lake 
Pontchartrain and the entire 10,000 square mile Pontchartrain Basin. 
The LPBF acts as the public's voice and a catalyst to build 
partnerships among local, State, and Federal agencies, businesses, 
agriculture, local universities, elected officials, and user groups to 
focus on the restoration of the Pontchartrain Basin.
    The Pontchartrain Basin encompasses 20 percent of Louisiana's area, 
including 16 parishes and the State's two largest cities, New Orleans 
and Baton Rouge. The Basin is home to over 2 million citizens, about 40 
percent of Louisiana's population. Topography ranges from rolling 
woodlands in the north to the highly urbanized metro New Orleans 
surrounding Lake Pontchartrain to coastal wetlands and barrier islands 
adjoining the Gulf of Mexico in the south. The 630 square mile Lake 
Pontchartrain (technically an inland bay because of tidal passes to the 
Gulf) immediately above New Orleans is the heart of the Basin.
    As a result of numerous restoration programs and the efforts of 
many, in the last 18 years, Lake Pontchartrain's health has improved 
significantly. Water clarity began improving in the mid 1990s. Pelicans 
began returning to the lake in the late 1990s. Blue crab harvest 
increased. By 2000, Lake Pontchartrain appeared suitable for swimming 
again. Record size trout and tarpon are being caught in Pontchartrain. 
In the summer of 2005, just prior to Hurricane Katrina, over 20 
manatees were sighted in Lake Pontchartrain Lake Pontchartrain's come 
back has become an icon for successful environmental restoration in 
Louisiana. Monitoring has been instrumental in Pontchartrain's 
recovery. Monitoring not only indicates the health of water, it also 
helps identify sources of pollution. A summary of Pontchartrain's 
monitoring programs follows.
              basin-wide water quality monitoring program
    The LPBF began monthly sampling of the lake in 1994. By 2000, it 
was apparent that water quality was improving. Thus, in January 2001, 
we initiated more intensive and frequent sampling with our Basin-Wide 
Water Quality Monitoring Program. The program has three goals:
    (1) Provide weekly water quality reports to the public;
    (2) Identify pollution sources; and
    (3) Share data with local, State, and Federal agencies.
    Each week, we sample 10 recreational sites utilizing EPA-approved 
methods. The parameters tested include fecal coliform and Enterococci 
bacteria levels, temperature, dissolved oxygen (DO), salinity (specific 
conductance), visibility/turbidity, and pH. We sample ten additional 
sites twice monthly for fecal coliform and Enterococci bacteria levels 
only. All parameters except bacteria are sampled in-situ (at the site). 
For bacteriological analysis, water samples are collected at each site 
and transported to an EPA-approved lab.
    To disseminate this information widely, the LPBF has partnered with 
newspapers and television and radio stations. The Times-Picayune, the 
region's largest newspaper, publishes our water quality reports weekly 
on its weather page (on Fridays). Television and radio stations air the 
reports during weather and fish and game programs. The reports are also 
available on the LPBF Web site, www.saveourlake.org.
    To date, the LPBF has collected over 3,500 water quality samples at 
the 10 weekly sites. These data have shown that Lake Pontchartrain is 
suitable for primary contact recreation (with high fecal coliform and 
Enterococci levels observed only following rain events). With public 
access to the data, there has been a significant increase in 
utilization of the Lake for boating, fishing, swimming, and other water 
activities. In contrast to the health of Lake Pontchartrain, 
unfortunately, data indicates that many waterways on the lake's north 
shore (including St. Tammany and Tangipahoa Parishes) are impaired due 
to rapid growth and resulting overloads in sewage treatment facilities.
    BEACH Program.--While LPBF had been sampling the beach at 
Fontainebleau State Park (north shore of Lake Pontchartrain) since 
2001, we began testing for the BEACH Program (as a contractor for the 
Louisiana Department of Health and Hospitals (LDHH)) in 2004. In 2007, 
the LDHH BEACH Program began preliminary water quality testing for 
Pontchartrain Beach in New Orleans (another site tested by LPBF since 
2001). This area was the primary swimming beach for New Orleans in the 
1950s and 1960s. The BEACH Program monitoring is the first attempt by 
DHH to re-evaluate the water quality status of Pontchartrain Beach and 
re-examine the long-standing swimming advisory for the New Orleans 
lakefront.
              sub-basin pollution source tracking program
    To improve the health of rivers and streams discharging into Lake 
Pontchartrain (particularly those on the north shore), the LPBF 
developed the Sub-Basin Pollution Source Identification/Tracking 
Program in 2002. As its name describes, this program's goal is to 
locate and identify specific sources polluting rivers and bayous. Once 
sources are identified, we provide technical assistance to attempt to 
eliminate the pollution. This program was piloted on the Bogue Falaya 
and Tchefuncte Watersheds (St. Tammany Parish) and is currently 
underway on the Tangipahoa and Natalbany Watersheds (Tangipahoa 
Parish).
    Water Quality Monitoring.--Sites are monitored every 2 weeks for 
water temperature, dissolved oxygen, specific conductance, pH, 
turbidity, and fecal coliform and E. coli bacteria year round. Using 
the water quality data and land use patterns, the LPBF and its partners 
(Parishes, the Louisiana Department of Environmental Quality's (LDEQ) 
Small Business Assistance Program, the LDHH and others) track down 
fecal pollution sources.
    Wastewater Treatment Plant Assistance.--LPBF works with WWTP 
owners/operators to insure the plants are functioning properly. This 
helps reduce the amount of fecal bacteria entering the waterways. We 
work with the LDEQ Small Business Assistance Program to offer 
education, technical support, and help with permits to the plant owner/
operators.
    Dairy Assistance.--LPBF works with Natural Resource Conservation 
Service for installation, maintenance, and closure of dairy waste 
lagoons. This is important because it is estimated that one cow equals 
about 15 people in terms of waste. We produce educational materials, 
promote the use of best management practices, and provide support to 
farmers with their waste lagoons.
    Outreach & Education.--Outreach is provided in several ways:
        <bullet>  Technical assistance to WWTP and dairy lagoon owners/
        operators.
        <bullet>  Public service announcement (PSA) on local television 
        stations.
        <bullet>   In partnership with LDEQ and LDHH, we produced and 
        distributed brochures to educate homeowners on the care and 
        maintenance of home WWTPs.
        <bullet>   Presentations at conferences, publications in 
        journals, and publications on the LPBF Web site.
    To date, this program has collected more than 3,600 water quality 
samples at 120 sites and provided technical assistance to more than 500 
WWTPs and 100 dairies. This has led to reductions in fecal pollution on 
more than 10 waterways. In 2005, the LDEQ selected the Sub-Basin 
Program as a model for wastewater surveillance activities and switched 
to a results-based (reduction in fecal loading) program. Most recently, 
the LPBF is expanding our partnership with Tangipahoa Parish, 
incorporating water quality issues into the parish's current land use 
planning effort.
    We intend to continue to partner with private, local, and State 
entities to coordinate restoration efforts. The LPBF's ultimate program 
goal is to meet the Clean Water Act's ``swimable'' criteria for all 
Pontchartrain Basin water bodies. Monitoring (such as the Beach 
Program) is critical to reduce pollution and achieve national 
``swimable and fishable'' goals.
[GRAPHIC] [TIFF OMITTED] 61972.004

[GRAPHIC] [TIFF OMITTED] 61972.005

        Response by Carlton Dufrechou to an Additional Question 
                          from Senator Inhofe
    Question. During the hearing, you were asked a question about what 
happened with the water in Lake Pontchartrain as a result of Hurricane 
Katrina. In your response, you mentioned that after Hurricane Katrina 
the toxic water from the city was pumped into Lake Pontchartrain and 
that the Lake recovered more quickly than you though it would. As you 
know, Lake Pontchartrain is a major fishing resource. Would you expand 
on your comment about the Lake recovering quickly and describe its 
suitability for recreation and fishing?
    Response. Due to failures in the New Orleans hurricane protection 
system, almost 120 square miles of the metro area were flooded during 
and immediately after Hurricane Katrina. The floodwaters picked up many 
contaminants from the urbanized areas including sewage, household 
chemicals, paints, oil, gasoline, and others. The news media referred 
to this mixture of floodwater and contaminants as ``toxic soup.'' Once 
the storm surge receded, the only timely alternative to drain New 
Orleans was to pump these polluted waters into Lake Pontchartrain. 
During the month after the storm, approximately 66 billion gallons of 
polluted water was pumped into the Lake from the city. Impacts to 
Pontchartrain were significant along the New Orleans shoreline. 
Bacteria levels climbed to almost 1,000 times higher than levels 
recommended for recreational swimming. Dissolved oxygen levels dropped 
to near zero. However, the majority of the Lake was not impacted. When 
compared to Lake Pontchartrain's total volume, the 66 billion gallons 
of polluted water amounts to less than 7 percent. Thus, because Lake 
Pontchartrain was healthy prior to the storm, it was able to rapidly 
assimilate the pollutants in the floodwaters. Once the pumping stopped, 
the Lake's water quality began to improve. By late November 2005 
(within 90 days of the storm), Lake Pontchartrain was again meeting 
fishable/swimable standards.

    Senator Lautenberg. Thank you. I think more help, it is 
obvious that it is needed, but it is also coming. We want to 
see a recovery down there, that historic part of our country 
and the people who live there, to have a strong Government 
program supporting you, trying to get some restoration.
    When I hear you talking about Pontchartrain and what it was 
in the early years, the 1960s, I think, where it was used as a 
recreational facility and then for years, unable to be 
available to the citizenry, it makes a difference in the 
quality of life. We commend you for the work you do.
    Mr. Dufrechou. Thank you.
    Senator Lautenberg. Ms. Dias, you had your surfer 
representative here already. We are glad to hear from you. It 
was very interesting. I didn't realize that Congressman Bilbray 
had such an active surfing life. It is nice to see you, and I 
invite you to give your testimony, please.

 STATEMENT OF MARA DIAS, WATER QUALITY COORDINATOR, SURFRIDER 
                           FOUNDATION

    Ms. Dias. Thank you. Good morning, and I would like to 
thank you, Mr. Chairman, for the opportunity to speak on how we 
can best protect water quality and the safety of beach-goers 
across this country.
    Surfrider is a grassroots environmental organization 
dedicated to the protection and enjoyment of the world's 
oceans, waves and beaches for all people. Many of our members 
are in the water daily, so poor water quality is a real concern 
for us.
    Surfrider operates through a system of over 60 chapters 
located in almost every coastal State. Local surfers often turn 
to our chapters when they believe they have become ill from 
surfing in polluted waters. Along the east coast, surfers and 
swimmers are noticing flu-like symptoms after being in the 
water. In California, poor water quality is unfortunately 
becoming far too commonplace. One study measured a 10 percent 
increase in illness for each additional 2\1/2\ hours of weekly 
water exposure from surfing at Orange County beaches.
    The Blue Water Task Force is Surfrider's water quality 
monitoring program. I will be illustrating the successes and 
needs of the BEACH Act by relating some of our chapters' 
experiences interacting with State and local programs through 
the Blue Water Task Force. The BEACH Act of 2000 is responsible 
for great improvements in beach monitoring. Unfortunately, 
under-funding has prevented full State implementation and has 
left public health at risk in many instances. Many State 
programs are under-staffed and are unable to meet all of their 
current testing requirements. Many of our Blue Water Task Force 
sampling programs have thus been designed to fill in the gaps 
left by State programs.
    Beach monitoring is limited to the summer time only in many 
cold water States. Surfers, however, are in the water year 
around. Even swimming is popular into the warmer fall months. 
Surfrider members in both Delaware and New Hampshire have been 
working with the States to extend the beach monitoring season 
beyond summer without adding further financial or staff burden 
to the Agency. In Delaware, Surfrider volunteers began 
collecting water samples year-round and delivering them to the 
local college for analysis after the chapter received numerous 
complaints from surfers who got ill after surfing in the waves 
generated by a fall storm.
    Inadequate funding has also resulted in geographical gaps 
in State programs. In Mendocino, CA, Surfrider volunteers have 
been collecting water samples from some of the more remote 
beaches and delivering them to the health department to 
increase the coverage of the county's monitoring program. 
States are also forced to prioritize which beaches they will 
sample. State and county health departments often choose to 
monitor the beaches where they know there are water quality 
problems, leaving the water quality at lower priority beaches 
uncertain for most of the year.
    Both in Oregon and New Jersey, Surfrider data has 
demonstrated new water quality concerns at such beaches, and as 
a result, these beaches have been added to monitoring programs, 
even though they were not previously being sampled. If Federal 
funding were appropriated at the levels recommended by the 
Beach Protection Act of 2007, I believe many of the gaps and 
problems with State implementation could be corrected.
    Surfrider is also supportive of using BEACH Act funds to 
investigate the sources of pollution and to take action to 
correct these problems. There is certainly a great need in 
every coastal State to have better information.
    To speak to EPA's comments about, they weren't sure it was 
relevant for this Act, I really believe it is. Because what you 
have happening is, people at the beach are seeing the signs, 
you can't go in the water. So they go to the lifeguards and 
say, why can't we go into the water? They say, well, because 
the health department put that sign there. So maybe they call 
the health department and they say why? And they say, well, 
because the water sample is bad. So they say, why is the water 
sample bad? And the health department says, we don't do that. 
We just monitor the quality. Then it is up to citizens to 
really push to find out what the reasons are.
    Also, I think that we need our new rapid methods. I think 
there are methods that are ready to be considered seriously for 
approval. I don't think we should be waiting. But EPA really 
needs a sound but streamlined process to approve these methods 
now.
    I think the panel should consider State implementation of 
these methods, though. One year after approval might not be 
realistic. They are going to have to buy new, expensive 
equipment and learn how to use it in many cases. So you need to 
really pay attention that it is going to take some real funding 
and it is going to take some time to get the States up to the 
level where they are able to use these methods.
    We also believe that annual reviews are a good idea and 
suggest that EPA use these reviews to take a close look at how 
beaches are being posted. This has been an area of concern for 
many of our members. At Pismo Beach in California, they were 
using cardboard signs that were getting blown away or blown 
down. This is improving; however, that is just ridiculous. 
Also, in Corpus Christi, TX, the city isn't even posting their 
beaches, because they are afraid that it is going to hurt the 
tourism industry. The Surfrider chapter there is trying to 
educate the city by saying, it is actually protective of the 
tourism industry. Wait until someone gets sick, because you 
knew the water was bad and you didn't tell them, your tourism 
is gone.
    So GAO was talking about the inconsistencies in the State 
program. It is huge. I have talked to Surfrider members in 
every State across the country who are dealing with these 
issues and the story is really different everywhere you go. So 
it is in posting, it is in notification, it is in sampling, it 
is in frequency, it is in coverage, there are a lot of 
inconsistencies.
    In closing, I would just like to thank you, Senator 
Lautenberg, for taking the initiative to make a lot of much-
needed improvements to this Act. I would like to urge Congress 
to consider the real cost of running comprehensive State beach 
monitoring programs that are in the best interest of public 
safety, environmental health of our beaches and also the 
vitality of our coastal economies. Thank you.
    [The prepared statement of Ms. Dias follows:]
Statement of Mara Dias, Water Quality Coordinator, Surfrider Foundation
    Good Morning. I'd like to begin by thanking Chairman Lautenberg, 
Senator Vitter and the other members of the subcommittee for the 
opportunity to speak on how we can best protect water quality and the 
safety of beach-goers across this country. My name is Mara Dias, and I 
am here before you today on behalf of the Surfrider Foundation.
    The Surfrider Foundation is a grass-roots, non-profit environmental 
organization dedicated to the protection and enjoyment of the world's 
oceans, waves and beaches for all people, through conservation, 
activism, research and education. Our over 50,000 members come from all 
walks of life. We are surfers. We are kayakers. We are moms, dads, and 
10-year old kids. We are scientists, bankers and musicians. What draws 
our diverse membership together is a love for the ocean and a strong 
desire to protect our oceans and beaches for everyone's enjoyment. Poor 
water quality is real threat that concerns everyone in Surfrider. A 
recent recreational survey found that surfers spend more time in the 
ocean water than any other recreational user group. I have been to 
coastal management meetings here in DC where the opening slide of a 
presentation from the Santa Monica Bay National Estuary Program showed 
the silhouette of a surfer as an indicator of water quality.
    The Surfrider Foundation operates through a system of over 60 
chapters located in almost every coastal State, and we are expanding 
internationally. On the local level our chapters are educating school 
children and members of the public on how to take care of our beaches 
and coasts. Our members are participating in water quality monitoring 
and scientific research programs, and we are working with local 
governments to ensure that coastal development is not harming our beach 
environment or taking away the public's right to access and use our 
beaches.
    The Blue Water Task Force (BWTF) is the Surfrider Foundation's 
water quality monitoring, education and advocacy program. It is 
utilized by our chapters to alert citizens and officials in their 
communities about water quality problems and to work toward solutions. 
The BWTF has succeeded in raising public awareness of coastal water 
pollution levels and has precipitated the establishment of State and 
local government water quality monitoring programs in many communities. 
In my testimony I will be illustrating the successes and needs of the 
BEACH Act, by sharing with the committee some of our chapters' 
experiences interacting with State and local beach monitoring programs 
through the Blue Water Task Force.
    The BEACH Act of 2000 is responsible for great improvements in 
beach monitoring programs in coastal States across the country. 
Previous to this legislation, some States, such as Washington, 
Wisconsin and Oregon, did not even have State coordinated beach 
monitoring programs. Other States, such as New Jersey, Virginia and 
California, were able to improve their already established monitoring 
programs with the new Federal funding by adding beaches and sampling 
more frequently. The BEACH Act also set national water quality 
monitoring and reporting standards, whereas before there was 
inconsistency amongst the indicators of water quality that States were 
using to safeguard public health.
    As State beach monitoring programs have improved, the public is 
also becoming more aware of the water pollution problems that are 
affecting our beaches. Public demand and political will to find the 
sources of pollution and to take action to correct these watershed 
problems are growing. Often the source of bacterial pollution that is 
causing our beaches to fail water quality standards is stormwater 
runoff that flows across dense development and impervious surfaces in 
coastal watersheds. Many local governments are trying to lessen the 
impact of development on water quality by requiring the principles of 
Low Impact Development and Stormwater Best Management Practices to be 
employed during construction and maintenance.
    Unfortunately, perennial under-funding has prevented full State 
implementation of the BEACH Act and has left public health at risk in 
many instances. Because of inadequate funding, many State programs are 
under-staffed and do not have the resources to meet all of their 
testing requirements. Many of the Surfrider BWTF beach sampling 
programs have been designed to fill in the gaps left by State agency 
programs.
    As is the case in many cold water States, Rhode Island's Bathing 
Beaches Monitoring Program only conducts water sampling during the 
summer months from Memorial Day to Labor Day. Surfers, however, are in 
the water year-round. Even swimming remains popular into the warmer 
fall months, and let's not forget the wintertime's polar bear clubs. In 
order to provide year-round water quality information, the Rhode Island 
Chapter has been collecting water samples from over a dozen ocean 
beaches in collaboration with the University of Rhode Island's 
Watershed Watch program.
    Surfrider members in both Delaware and New Hampshire are working in 
collaboration with their State agencies to extend the beach monitoring 
season beyond the summer months without adding further financial or 
staff burden to the States. In Delaware, Surfrider volunteers began 
collecting water samples year-round and delivering them to the 
University of Delaware's School of Marine Studies for analysis after 
the chapter received numerous complaints from local surfers who got ill 
after surfing in the waves generated by a fall storm. In New Hampshire, 
the Department of Environmental Services (NHDES) applied for additional 
funding from the USEPA to extend their sampling program into the fall 
and spring seasons after the local Surfrider chapter expressed their 
concerns over the lack of water quality information for most of the 
year. The NHDES now provides supplies and training to the Surfrider 
volunteers, who in turn collect the ocean beach water samples.
    In addition to seasonal gaps, inadequate funding has also resulted 
in geographical gaps in State beach monitoring programs. In Mendocino, 
California, Surfrider volunteers have been collecting water samples 
from some of the more remote beaches and delivering them to the 
Mendocino County Environmental Health Department to increase the 
coverage of the County's beach monitoring program. The County does not 
have the staff resources available on their own to visit all of its 
bathing beaches on a regular basis.
    Limited funding for staff often forces State programs to prioritize 
which beaches they will sample. While high priority beaches can be 
sampled upwards of 3-4 times per week, other lower priority beaches are 
only visited monthly or yearly, leaving the actual water quality at 
these beaches uncertain for most of the year. State and county health 
departments often choose to monitor the beaches where they know there 
are water quality problems, rather than devote precious staff time and 
laboratory resources sampling beaches that have not been problematic in 
the past. Unfortunately this leaves public health at risk.
    Local surfers often turn to Surfrider when they believe they have 
become ill from surfing in polluted water. Many, if not all of our 
chapters, have fielded such complaints, and have in turn voiced 
inquiries to their local health departments. From Newport, Rhode 
Island, along the Jersey Shore, and down to Florida, surfers and 
swimmers are noticing flu-like symptoms after being in the water. In 
urbanized areas of California, poor water quality is unfortunately 
becoming far too commonplace. One study performed by University of 
California researchers measured a 10 percent increase in illness for 
each additional 2.5 hours of weekly water exposure from surfing at 
beaches impacted by urban runoff in Orange County, in comparison to 
surfers from the more rural watersheds of Santa Cruz County.
    Because many Surfrider members have a very intimate knowledge of 
the conditions of their local beaches, many State programs consult us 
before establishing their sampling sites and frequencies. Both in 
Oregon and New Jersey, Surfrider BWTF data have been shared with the 
Agency programs to demonstrate new water quality concerns. As a result, 
the agencies have added beaches to their monitoring programs that were 
not previously being sampled.
    If Federal funding were appropriated at the levels recommended by 
the Beach Protection Act of 2007 introduced by Chairman Lautenberg, I 
believe many of the gaps and problems with current State implementation 
could be corrected.
    Surfrider is also pleased to see language included in this bill 
allowing States to use their BEACH grants to investigate the sources of 
beach water pollution and to take action to correct these problems. 
Currently, Surfrider is working with many local governments and 
agencies to secure funding to perform these types of studies so that 
action can be taken to solve our watershed pollution problems and 
cleanup our beaches. In California, the San Luis Bay Chapter has 
cooperated with the County Health Department and city of Pismo Beach to 
submit a grant application to the California State Water Quality 
Control Board to determine what has been causing Pismo Beach to 
regularly fail to meet water quality standards. Likewise, the San Mateo 
County Chapter has applied to the Water Quality Control Board for 
funding to track the source of pollution at the impaired, 303D listed 
Capistrano Beach. Further up the coast in Oregon, the Newport Surfrider 
Chapter is putting up its own money and is working hard to obtain match 
funding from other environmental organizations and agencies to identify 
what is contributing to the bacterial contamination of Nye Beach.
    There is certainly a great need in every coastal State to have 
better information available on what is causing our water quality 
problems, so that coastal communities can target these sources with 
effective management programs and practices. Providing water quality 
information to the public was a good first step. It is now time for the 
Federal Government to do more to protect public health, by providing 
financial assistance to help communities fix their beach pollution 
problems.
    The Surfrider Foundation also agrees with the authors of the Beach 
Protection Act of 2007 that EPA needs to begin approving new methods 
that will give beach managers water quality information within a couple 
of hours. Current methods employ a 24-hour incubation period, so you 
know today that the beach was polluted yesterday. Many States also 
resample after receiving a result that does not meet the standards, so 
it may be over 48 hours before a water quality problem is confirmed and 
decisions are made to close beaches or to issue swimming advisories. We 
certainly should be able to do better than this. Great advancements in 
method development have been made recently in the research community. 
The EPA needs to develop a sound, but streamlined process to approve 
these new rapid methods.
    This panel, however, should consider the time line this legislation 
sets for State implementation of newly approved methods. One year after 
approval may not be feasible. The new rapid methods that are now 
available, would require the States to not only purchase new and 
expensive laboratory equipment, but they also would either have to hire 
new employees or get their current employees the training they would 
need to run these highly specialized and technically demanding methods. 
Additionally most agencies would likely want to run the new methods 
simultaneously with their current methods for at least one season, as 
many did when they adopted new standards in 2004. This would allow them 
to work out any problems with their new sampling procedures and give 
them confidence in their results. Perhaps, it would be would be better 
to require the States to submit a plan for implementing rapid testing 
methods within a year of EPA adoption.
    There are rapid methods available now that the EPA should be 
considering for approval. If the EPA is able to move quickly toward the 
approval process, we should be able to see these methods being used at 
our beaches within a few years, even giving time for State budgeting, 
procurement and training needs. I would recommend that this panel seek 
input from some of the State agencies on this specific provision and to 
be fully aware that any change in methodology is going to take a 
significant financial investment for equipment purchases and staff 
training.
    In the Great Lakes region some coastal States are using water 
quality models to augment their beach monitoring programs . Models have 
been developed that are allowing beach managers to predict water 
quality based on weather and physical conditions of the water and make 
beach closure decisions almost instantaneously. Frustration, however, 
has been expressed from some of States because they are not able to use 
their BEACH grant funds to help develop or support their water quality 
modeling systems. Supporting the States in their endeavors to develop 
accurate water quality models may be an even quicker route to 
supporting rapid assessment of beach water quality and timely public 
health decisions.
    The Surfrider Foundation is also supportive of this bill's 
requirements that State programs create public online databases. Many 
States already have these resources but there is discrepancy amongst 
States on the quality, quantity, and timeliness of information 
available. The EPA should take a stronger leadership role through the 
proposed annual reviews, to set the bar for some of the State programs 
whose programs are not as robust as some the more experienced States 
who have been coordinating beach programs for decades and putting 
significant resources into their monitoring programs.
    Another suggestion for the annual reviews is that the EPA should 
take a close look at how beaches are being posted. This has been an 
area of concern for many of our members. At Pismo Beach, California 
cardboard signs that were not standing up to the elements were 
previously being used to post swimming advisories. Through the 
cooperation of the local chapter and a newly formed Pismo Beach Water 
Quality Group, new permanent signs are now being developed. 
Additionally in Corpus Christi, Texas, the City has been reluctant to 
post beaches even when directed to do so by the Texas Beach Watch 
Program. This reluctance stems from fears by the commerce and tourism 
industries that posting beaches will have negative economic impacts. 
The Texas Coastal Bend Chapter has been trying to educate the City on 
how issuing swimming advisories and posting beaches actually protects 
the tourism industry from the certain economic disaster that would 
occur if a number of tourists become ill and the proper warnings were 
not in place.
    In closing, the Surfrider Foundation would like to thank Senator 
Lautenberg and his cosponsors for taking the initiative to make much 
needed improvements in the BEACH Act. We also urge Congress to consider 
the real costs of running comprehensive State beach monitoring programs 
that are in the best interests of public safety, the environmental 
health of our beaches, and the vitality of our coastal economies.

    Senator Lautenberg. Thank you, each one of you. Because 
this confirms the fact that there is, if we don't do this, 
there is terrific cost involved, not just the personal trauma 
of going swimming and coming home or winding up at the doctor 
the next day or even worse. But there is, to put it bluntly, it 
is a loss of income, expense. One of the reasons that I was so 
vigorous in writing the first BEACH law was because I felt New 
Jersey was more diligent about reporting problems than some of 
our neighboring States. Frankly, we didn't want to lose the 
business for being good actors.
    So I think that message has to get through to the States: 
if you don't do it, they are all liable to find easier places 
to get to that are cleaner or other places to get to that are 
cleaner and abandon their interest in being in your State or on 
your coast. That would be a terrible blight. That is as bad as 
having a natural disaster come along. You are an expert now, 
Mr. Dufrechou, about natural disasters, what happened there.
    I am curious about something. What happened with the waters 
in Lake Pontchartrain as a result of Katrina?
    Mr. Dufrechou. After Hurricane Katrina, 120 square miles of 
the New Orleans metropolitan area were flooded, 120 square 
miles behind the levees, sir. Because of the topography, 
because most of New Orleans is, well, half of New Orleans is 
literally below sea level, all that 120 square miles is behind 
the levee system. So once the water was inside the levee 
system, the only feasible way to get it out in the near term 
was to pump it out. The pumping had to go into Lake 
Pontchartrain.
    And by gravity, also, the topography, the little bit of 
relief we had, the highest point of the city is actually the 
Mississippi River, which is the south side of the city. It 
slopes gradually to the lakefront, which used to be a swamp, a 
cypress swamp, along the shoreline. The 120 square miles that 
were pumped out over a period of 4 weeks amounted to 66 billion 
gallons of water. There was a lot of hype in the media of toxic 
soup. It was not hype, it was true. It was everything from 
sewage to oil and gas and automobiles, household chemicals, 
anything that was in the urban area.
    The reality, however, is that Pontchartrain, fortunately, 
had gone into the storm very healthy. It was back to 1950 
conditions as far as water quality. We were fishable-swimmable 
prior to the storm. By volume, Lake Pontchartrain is a large 
body of water. It is 630 square miles. Still, that 66 billion 
gallons is a lot of water. When it was discharged, it hugged 
the south shore, basically the New Orleans shoreline. By 
volume, it was less than 7 percent of the Lake's volume.
    So we are not advocating this, but what happened is, Mother 
Nature stepped in and the solution to pollution is dilution. 
That is exactly what happened. Over a period of about 6 weeks, 
we knew the Lake was going to recover, frankly, it recovered 
more quickly than we thought it was. But Christmas of 2005, the 
Lake again was suitable for primary recreation, which was 
amazing.
    Senator Lautenberg. That is excellent.
    Mr. Dufrechou. However, we are not suggesting that----
    [Laughter.]
    Senator Lautenberg. No, no. We don't stop there. When 
something is good, you always want more of it.
    Mr. Dufrechou. Yes, sir. Thanks for asking.
    Senator Lautenberg. Cindy, what benefits might evolve from 
more rapid testing for bacteria at the beach? Will the faster 
testing turnaround promote local agency and citizen groups such 
as Clean Ocean Action? What kind of benefits are derived from 
quick action on these things and more thorough testing? What 
are the practical effects? We know that people might develop 
less illness or less reaction to it. But are there other 
benefits? Are people waved off when they see these things, not 
to return? What is the effect?
    Ms. Zipf. I think that one of the primary effects is that 
we will catch more of the actual water quality problems. Right 
now, 70 percent of the beach closures happen within the first 
24 hours. Well, it lasts about 24 hours. So if your test takes 
2 to 3 days, you are not going to be able to get to some of 
those closures. Because of the link to track-down, you are not 
going to have an incentive to track down those sources of 
pollution.
    So faster testing means we are going to have better water 
quality testing programs. Public health will be protected. We 
will find more areas that are of concern, which will lead to 
more track-down, which will lead to more reduction of those 
sources, which then will improve the habitat, not just for 
people, but for all marine life as well. I think that is one.
    And then of course, I think that the other practical 
application is that there will be more confidence in the system 
by citizens.
    Senator Lautenberg. Yes. Funny, the ancillary things that 
are happening. A specialty of mine is transportation. We now 
have better train service down to the surf communities. So keep 
the water clean and keep them coming, get them off the roads at 
the same time, stop the congestion. Wow, just one good world.
    Ms. Zipf. Perfect.
    Senator Lautenberg. Surfrider, I didn't realize how 
extensive the interest is, or the organized interest in 
surfing. You talked about cold water surfing. I have been to 
the South Pole in my interest in the environment. I don't know 
how cold people go into the water, but I can tell you, what we 
are missing is a sufficient amount of cold water in places 
around the world, and to use it when it is clean recreationally 
to me is a great idea. Because it brings home the peripheral 
value of cold water. It is not just for a day of surfing if you 
are waved, but it brings home the reality of what is happening 
to our earth and our waters. I am also taking on that fight 
when we get finished with this.
    But the quality of State monitoring and testing programs, I 
think you did say that it varies significantly in your own 
organization. Does your organization, the employees, have a 
presence all over?
    Ms. Dias. No, we don't have employees all over. I am an 
employee of the Surfrider Foundation. We probably have over 
50,000 members and activists and volunteers. We have a staff of 
about 20, maybe 25. On the east coast, we have two people, one 
in New Jersey, one in Florida. I am the only environmental 
staff on the east coast. Our headquarters are in California.
    But you have a lot of people who go to the beaches, they go 
to the beaches every day and they see things happening to the 
beaches that they don't like, and they want to be involved in 
what is happening in their communities and at the beaches and 
in the water quality. So we have Surfrider volunteers going out 
teaching school kids how to take care of water and the beaches. 
You have volunteers going to city planning board meetings and 
talking about coastal development and making sure that the 
public is still able to get to the beaches.
    It is really grass roots, you have a lot of people out 
there.
    Senator Lautenberg. They are acting in some way, and I am 
sure they might not like this characterization, but like the 
canaries in the coal mine, an early warning about what the 
water is like, because they get out there at some distances as 
well.
    Ms. Dias. Yes.
    Senator Lautenberg. So we congratulate each one of you. 
Your testimony was excellent. You have provided the answers 
before I asked the questions, which was the best way. We are 
once again saying that all of the statements that you would 
like to furnish will be recorded in the record.
    With that, we compliment the staff here who helped me, not 
my usual staffers but the committee team. They are very 
diligent about their work and I appreciate their support.
    So we say good surfing, good fishing, good swimming, good 
health to all of you. Thank you very much and the hearing is 
over.
    [Whereupon, at 11:23 a.m., the committee was adjourned.]
    [Additional statements submitted for the record follow.]
       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma
    Thank you Chairman Lautenberg for holding this hearing. While my 
State of Oklahoma is not required to comply with the Beach Act of 2000, 
Oklahoma did adopt EPA's 1986 bacteria criteria for recreational 
waters. Therefore, I am quite interested in EPA's progress in 
developing new criteria which it was mandated by the Beach Act to have 
done by October 2005.
    The Beach Act has been very successful in increasing the public's 
awareness of potential problems at their local beaches. In 1997, 1,000 
beaches were monitored for pathogen indicators. Thanks to the Beach 
Act, 3,500 of the Nation's 6,000 beaches are now regularly monitored 
providing potentially valuable information to the public about the 
safety of these recreational waters.
    However, the information we are getting may not be accurately 
predicting the risk to people swimming in the water. According to a 
recent Government Accountability Report, local officials at 96 percent 
of the beaches in the Great Lakes States indicated it took between 18 
and 36 hours to get test results back. By the time the beach is closed, 
the contamination has likely cleared up negating the need to close the 
beach but potentially having left the visitors from the previous day 
exposed. EPA is in the process of developing rapid response testing 
procedures. Further, our Chairman, as well as our two colleagues from 
the House each have bills that include provisions addressing real time 
testing. While having access to quick information is important, we need 
to be sure we are testing for the right indicators.
    The Beach Act required EPA to finalize new criteria because of 
significant concerns raised about its 1986 criteria that all coastal 
States and many inland States have now adopted. It is important to look 
at some of the issues raised regarding the criteria so that similar 
mistakes are not repeated.
    In its 2002 water quality assessment report to EPA, Oklahoma had 
more than 5,300 miles of rivers and streams impaired by pathogens. It 
is the State's No. 1 cause of impairments to rivers and streams and 
yet, like many inland States, Oklahoma has not seen a level of illness 
consistent with the impairments. Part of the problem may be that 
gastrointestinal illnesses often go unreported to health officials and 
an individual may assume the illness was brought on by something he ate 
as opposed to the day at the beach. However, the States have questioned 
the applicability of the criteria to all waters as well as whether the 
criteria adequately reflect daily exposure risks.
    Furthermore, As GAO noted in its May 2007 report on the Beaches 
Act, according to EPA scientists, E.Coli may not be a good indicator 
because it occurs naturally in many environments. Additionally, on many 
remote coastal beaches, the bacteria are from animals which are largely 
believed to pose much less risk to humans than those from other humans.
    With so many questions and concerns about the current criteria, it 
is critical that the new criteria be correct. Beaches across the 
country are being closed every day and as one of today's witnesses 
points out, it is costing States and local governments significant 
recreation dollars. To test, monitor and treat for the wrong bacteria 
will not only cost time and resources but it will not result in an 
improvement in public health. While Agencies should absolutely meet 
their statutory deadlines, I am quite concerned about rushing the 
process and sacrificing science in order to more quickly develop new 
criteria.
    The Government Accounting Office recommended EPA develop a 
timeframe for the completion of these much needed studies and for the 
issuance of the new criteria. EPA has indicated that it may take as 
many as 5 years to complete the studies. The Agency recently convened a 
panel of 40 experts to determine the best path forward and I believe 
EPA is heading in the right direction. While we may all want answers 
tomorrow, we need to give the Agency the time it needs to develop 
scientifically sound criteria.
    I look forward to working with the Agency and my colleagues as we 
look at whether the Beach Act should be reauthorized and how to ensure 
the nation's recreational waters are safe.
                               __________
      Statement of Hon. Benjamin L. Cardin, U.S. Senator from the 
                           State of Maryland
    Mr. Chairman. Thank you for holding this hearing today. We have a 
number of important witnesses to hear from, so I will keep my opening 
statement brief.
    This hearing is especially timely. Today the high temperatures in 
Maryland are expected to be in the 90s. The sun is out. School children 
are on summer vacation. For many Marylanders, that means it's time to 
head to the beach.
    Earlier this week I was in Ocean City, Maryland, one of the premier 
beach spots on the mid-Atlantic coast. On our drive back home, as we 
crossed the Chesapeake Bay Bridge, we could look down on Sandy Point 
State Park, which is one of the most popular beaches in the Chesapeake 
Bay.
    Both of these vacations spots were crowded with families, swimming, 
surf fishing, and just getting their feet wet on a long, sandy walk. 
Across the State, people are enjoying some of the beauty of our State. 
In every instance, these beachgoers have a right to know that the water 
quality meets all EPA standards. Unfortunately, that's not always the 
case.
    Yesterday, with the temperatures above 90 degrees, two Maryland 
beaches were closed because of high bacteria counts in the water. The 
Charlestown Manor Beach and the Buttonwood Beach, both in Cecil County, 
were closed by the local health department, which advised the public to 
stay out of the water.
    The day before yesterday, two additional beaches were closed 
because of excessive bacteria levels. The Great Oak and Gregg Neck 
beaches in Kent County had to be closed to protect human health.
    These closures, unfortunately, are not new and they are not 
uncommon.
    The Maryland Department of the Environment monitors 81 beaches in 
the State. Last year 18 of them, or 22 percent, had at least one 
advisory during beach season.
    A total of 31 beach notification actions were reported. Half of 
them lasted more than a week, including persistent problems with high 
bacteria counts at Sandy Point State Park.
    Clearly, we need to continue the monitoring programs for the 
valuable information they provide us. But as the data reveal, we still 
have a long way to go to provide beach-goers in Maryland and around the 
country with water quality they have every right to expect on these hot 
summer days.
    The Federal grants to States under the 2000 BEACH Act are being put 
to good use. We need to continue and expand that effort. But we also 
need to make some key improvements, including a provision to make these 
funds available to investigate and mitigate contamination sources.
    I look forward to hearing from our witnesses today, and to working 
with you, Mr. Chairman, in taking some additional steps to deal with 
this important issue.
    People in Maryland and across the Nation are ready to hit the 
beach. Let's make sure that they can actually go into the water.
    Thank you, Mr. Chairman.
    [GRAPHIC] [TIFF OMITTED] 61972.002
    
    [GRAPHIC] [TIFF OMITTED] 61972.003
    
  

                                  <all>

</pre></body></html>
